  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL


      CIGNA HEALTHCARE OF
  ARIZONA, INC. (CONTRACT H0354),
 SUBMITTED MANY DIAGNOSES TO THE
 CENTERS FOR MEDICARE & MEDICAID
SERVICES THAT DID NOT COMPLY WITH
    FEDERAL REQUIREMENTS FOR
       CALENDAR YEAR 2007
    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                    Daniel R. Levinson
                                                     Inspector General

                                                         May 2013
                                                       A-07-10-01082
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

BACKGROUND

Under the Medicare Advantage (MA) program, the Centers for Medicare & Medicaid Services
(CMS) makes monthly capitated payments to MA organizations for beneficiaries enrolled in the
organizations’ health care plans. Subsections 1853(a)(1)(C) and (a)(3) of the Social Security Act
require that these payments be adjusted based on the health status of each beneficiary. CMS uses
the Hierarchical Condition Category (HCC) model (the CMS model) to calculate these risk-
adjusted payments.

Under the CMS model, MA organizations collect risk adjustment data, including beneficiary
diagnoses, from hospital inpatient facilities, hospital outpatient facilities, and physicians during a
data collection period. MA organizations identify the diagnoses relevant to the model and
submit them to CMS. CMS categorizes the diagnoses into groups of clinically related diseases
called HCCs and uses the HCCs, as well as demographic characteristics, to calculate a risk score
for each beneficiary. CMS then uses the risk scores to adjust the monthly capitated payments to
MA organizations for the next payment period.

CIGNA Healthcare of Arizona, Inc. (CIGNA), is an MA organization. For calendar year
(CY) 2007, CIGNA had one contract with CMS, contract H0354, which we refer to as “the
contract.” Under the contract, CMS paid CIGNA approximately $328 million to administer
health care plans for approximately 31,677 beneficiaries.

OBJECTIVE

Our objective was to determine whether the diagnoses that CIGNA submitted to CMS for use in
CMS’s risk score calculations complied with Federal requirements.

SUMMARY OF FINDINGS

The diagnoses that CIGNA submitted to CMS for use in CMS’s risk score calculations did not
always comply with Federal requirements. For 60 of the 100 beneficiaries in our sample, the risk
scores calculated using the diagnoses that CIGNA submitted were valid. The risk scores for the
remaining 40 beneficiaries were invalid because the diagnoses were not supported for one or
both of the following reasons:

   •   The documentation did not support the associated diagnosis.

   •   The diagnosis was unconfirmed.

CIGNA’s policies and procedures were not effective for ensuring that the diagnoses it submitted
to CMS complied with the requirements of the 2006 Risk Adjustment Data Basic Training for
Medicare Advantage Organizations Participant Guide (the 2006 Participant Guide) and the 2007
Risk Adjustment Data Training for Medicare Advantage Organizations Participant Guide (the
2007 Participant Guide). CIGNA’s contracts required providers to submit accurate claims that

                                                  i
complied with all Medicare requirements, and CIGNA officials stated that they relied on
providers to submit accurate diagnoses in their claims. However, providers often reported
incorrect diagnoses as a result of data entry errors and reported diagnoses for conditions that did
not exist at the time of beneficiaries’ encounters.

As a result of these unsupported and unconfirmed diagnoses, CIGNA received $151,453 in
overpayments from CMS. Based on our sample results, we estimated that CIGNA received
approximately $28,353,516 in additional overpayments for CY 2007. This amount represents
our point estimate less the total error amount for our sampled beneficiaries. The confidence
interval for this estimate has a lower limit of $20.7 million and an upper limit of $36.3 million.

RECOMMENDATIONS

We recommend the following:

   •   CIGNA should refund to the Federal Government $151,453 in overpayments identified
       for the sampled beneficiaries.

   •   CIGNA should work with CMS to determine the correct contract-level adjustment for the
       additional $28,353,516 of projected overpayments.

   •   CIGNA should improve its current policies and procedures to ensure compliance with
       Federal requirements.

CIGNA COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

Auditee Comments

In written comments on our draft report and in followup communications, CIGNA disagreed
with our findings and said that our analysis, methodology, and extrapolation were flawed.
Specifically, CIGNA disagreed with results of our first and second medical reviews for 24 HCCs
and gave us additional documentation (not previously provided) as to why the HCCs were
supported. CIGNA stated that this documentation complied with CMS coding guidelines for
seven HCCs.

CIGNA also stated that our model did not account for error rates inherent in Medicare fee-for-
service (FFS) data, specifically the disparity between FFS claim data and FFS medical records
data and the disparity’s potential impact on MA payments. In addition, CIGNA said that we
should have used the 2006 Participant Guide to evaluate CIGNA’s compliance with CMS’s
requirements.

CIGNA stated that correcting errors made by our medical review contractor would reduce the
extrapolated overpayment to approximately $440,000.




                                                 ii
Office of Inspector General Response

Regarding the 24 HCCs for which CIGNA provided additional documentation, CIGNA stated
that the medical records for 17 of the 24 HCCs were not coded according to CMS’s coding
guidelines, but added that CIGNA should be eligible for the associated risk adjustment payments
because it could support the underlying diagnoses through other means. Because the
documentation did not meet CMS’s coding guidelines, we did not submit it to our medical
review contractor. We submitted the documentation for the seven remaining HCCs to our
medical review contractor for a third medical review and revised our findings accordingly.

Although an analysis to determine the potential impact of error rates inherent in FFS data on MA
payments was beyond the scope of our audit, we acknowledge that CMS is studying this issue
and its potential impact on audits of MA organizations. Therefore, because of the potential
impact of these error rates on the CMS model that we used to recalculate MA payments for the
beneficiaries in our sample, we (1) modified one recommendation to have CIGNA refund only
the overpayments identified for the sampled beneficiaries rather than refund the estimated
overpayments and (2) added a recommendation that CIGNA work with CMS to determine the
correct contract-level adjustments for the estimated overpayments.

Regarding CMS’s 2006 Participant Guide, we based our findings on criteria set forth in CMS’s
2007 Participant Guide. After our review, we compared the data submission criteria in the 2006
and 2007 Participant Guides and determined that there were no substantive differences in the
criteria upon which we based our results.




                                               iii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicare Advantage Program .............................................................................1
              Risk-Adjusted Payments ......................................................................................1
              Federal Requirements ..........................................................................................1
              CIGNA Healthcare of Arizona, Inc. ....................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope ....................................................................................................................2
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................4

          FEDERAL REQUIREMENTS ........................................................................................5

          UNSUPPORTED HIERARCHICAL CONDITION CATEGORIES .............................5
              Unsupported Diagnosis Coding ...........................................................................6
              Unconfirmed Diagnoses.......................................................................................6

          CAUSES OF OVERPAYMENTS ...................................................................................7

          ESTIMATED OVERPAYMENTS .................................................................................7

          RECOMMENDATIONS .................................................................................................7

          CIGNA COMMENTS AND
           OFFICE OF INSPECTOR GENERAL RESPONSE ...................................................8
               Centers for Medicare & Medicaid Services Model .............................................9
               Random Sample ...................................................................................................9
               Audit Methodology ..............................................................................................10
               Departure From 2006 and 2007 Participant Guides ............................................11
               Physician Signature Attestations..........................................................................12
               Limitations and Overreliance on Physician Coding Accuracy ............................13
               Additional Hierarchical Condition Categories.....................................................13
               Invalidated Hierarchical Condition Categories ....................................................14
               Policies and Procedures .......................................................................................14




                                                                    iv
APPENDIXES

    A: SAMPLE DESIGN AND METHODOLOGY

    B: SAMPLE RESULTS AND ESTIMATES

    C: DOCUMENTATION ERRORS IN SAMPLE

    D: CIGNA COMMENTS




                               v
                                             INTRODUCTION

BACKGROUND

Medicare Advantage Program

The Balanced Budget Act of 1997, P.L. No. 105-33, established Medicare Part C to offer
beneficiaries managed care options through the Medicare+Choice program. Section 201 of the
Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
revised Medicare Part C and renamed the program the Medicare Advantage (MA) program.
Organizations that participate in the MA program include health maintenance organizations,
preferred provider organizations, provider-sponsored organizations, and private fee-for-service
(FFS) plans. The Centers for Medicare & Medicaid Services (CMS), which administers the
Medicare program, makes monthly capitated payments to MA organizations for beneficiaries
enrolled in the organizations’ health care plans (beneficiaries).

Risk-Adjusted Payments

Subsections 1853(a)(1)(C) and (a)(3) of the Social Security Act require that payments to
MA organizations be adjusted based on the health status of each beneficiary. In calendar year
(CY) 2004, CMS implemented the Hierarchical Condition Category (HCC) model (the CMS
model) to calculate these risk-adjusted payments.

Under the CMS model, MA organizations collect risk adjustment data, including beneficiary
diagnoses, from hospital inpatient facilities, hospital outpatient facilities, and physicians during a
data collection period. 1 MA organizations identify the diagnoses relevant to the model and
submit them to CMS. CMS categorizes the diagnoses into groups of clinically related diseases
called HCCs and uses the HCCs, as well as demographic characteristics, to calculate a risk score
for each beneficiary. CMS then uses the risk scores to adjust the monthly capitated payments to
MA organizations for the next payment period. 2

Federal Requirements

Regulations (42 CFR § 422.310(b)) require MA organizations to submit risk adjustment data to
CMS in accordance with CMS instructions. CMS issued instructions in its 2006 Risk Adjustment
Data Basic Training for Medicare Advantage Organizations Participant Guide (the 2006
Participant Guide) that provided requirements for submitting risk adjustment data for the
CY 2006 data collection period. CMS issued similar instructions in its 2007 Risk Adjustment
Data Training for Medicare Advantage Organizations Participant Guide (the 2007 Participant
Guide).

1
 Risk adjustment data also include health insurance claim numbers, provider types, and the from and through dates
for the services.
2
 For example, CMS used data that MA organizations submitted for the CY 2006 data collection period to adjust
payments for the CY 2007 payment period.


                                                        1
Diagnoses included in risk adjustment data must be based on clinical medical record
documentation from a face-to-face encounter; coded according to the International Classification
of Diseases, Ninth Revision, Clinical Modification (ICD-9-CM) (the Coding Guidelines);
assigned based on dates of service within the data collection period; and submitted to the MA
organization from an appropriate risk adjustment provider type and an appropriate risk
adjustment physician data source. The 2006 and 2007 Participant Guides described requirements
for hospital inpatient, hospital outpatient, and physician documentation.

CIGNA Healthcare of Arizona, Inc.

CIGNA Healthcare of Arizona, Inc. (CIGNA), is an MA organization. For CY 2007, CIGNA
had one contract with CMS, contract H0354, which we refer to as “the contract.” Under the
contract, CMS paid CIGNA approximately $328 million to administer health care plans for
approximately 31,677 beneficiaries.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the diagnoses that CIGNA submitted to CMS for use in
CMS’s risk score calculations complied with Federal requirements.

Scope

Our review covered approximately $210 million of the CY 2007 MA organization payments that
CMS made to CIGNA on behalf of 18,821 beneficiaries. These payments were based on risk
adjustment data that CIGNA submitted to CMS for CY 2006 dates of service for beneficiaries
who (1) were continuously enrolled under the contract during all of CY 2006 and January of
CY 2007 3 and (2) had a CY 2007 risk score that was based on at least one HCC. We limited our
review of CIGNA’s internal control structure to controls over the collection, processing, and
submission of risk adjustment data.

We asked CIGNA to provide us with the one medical record that best supported the HCC(s) that
CMS used to calculate each risk score. If our review found that a medical record did not support
one or more assigned HCCs, we provided CIGNA with the opportunity to submit an additional
medical record for a second medical review.

We performed our fieldwork at CIGNA in Phoenix, Arizona, and at CMS in Baltimore,
Maryland, from December 2008 through November 2009.




3
 We limited our sampling frame to continuously enrolled beneficiaries to ensure that CIGNA was responsible for
submitting the risk adjustment data that resulted in the risk scores covered by our review.

                                                       2
Methodology

To accomplish our objective, we did the following:

    •    We reviewed applicable Federal laws, regulations, and guidance regarding payments to
         MA organizations.

    •    We interviewed CMS officials to obtain an understanding of the CMS model.

    •    We obtained the services of a medical review contractor to determine whether the
         documentation that CIGNA submitted supported the HCCs associated with the
         beneficiaries in our sample.

    •    We interviewed CIGNA officials to gain an understanding of CIGNA’s internal controls
         for obtaining risk adjustment data from providers, processing the data, and submitting the
         data to CMS.

    •    We obtained enrollment data, CY 2007 beneficiary risk score data, and CY 2006 risk
         adjustment data from CMS and identified 18,821 beneficiaries who (1) were
         continuously enrolled under the contract during all of CY 2006 and January of CY 2007
         and (2) had a CY 2007 risk score that was based on at least 1 HCC.

    •    We selected a simple random sample of 100 beneficiaries with 314 HCCs. (See
         Appendix A for our sample design and methodology.) For each sampled beneficiary, we:

             o    analyzed the CY 2007 beneficiary risk score data to identify the HCC(s) that
                  CMS assigned;

             o    analyzed the CY 2006 risk adjustment data to identify the diagnosis or diagnoses
                  that CIGNA submitted to CMS associated with the beneficiary’s HCC(s);

             o    requested that CIGNA provide us with the one medical record that, in CIGNA’s
                  judgment, best supported the HCC(s) that CMS used to calculate the beneficiary’s
                  risk score; and

             o    obtained CIGNA’s certification that the documentation provided represented “the
                  one best medical record to support the HCC.” 4

    •    We submitted CIGNA’s documentation and HCCs for each beneficiary to our medical
         review contractor for a first medical review and requested additional documentation from


4
  The 2006 Participant Guide, sections 8.2.3 and 8.2.3.1, and the 2007 Participant Guide, sections 7.2.3 and 7.2.3.1,
required plans to select the “one best medical record” to support each HCC and indicated that the best medical
record may include a range of consecutive dates (if the record is from a hospital inpatient provider) or one date (if
the record is from a hospital outpatient or physician provider).


                                                          3
              CIGNA for a second medical review if the medical review contractor found that
              documentation submitted during the first did not support the HCCs. 5

      •       For HCCs that we questioned in our draft report with which CIGNA disagreed, 6 CIGNA
              provided additional information, which we submitted to our medical review contractor
              for a third review.

      •       For the sampled beneficiaries that we determined to have unsupported HCCs, we (1) used
              the medical review results to adjust the beneficiaries’ risk scores, (2) recalculated
              CY 2007 payments using the adjusted risk scores, and (3) subtracted the recalculated
              CY 2007 payments from the actual CY 2007 payments to determine the overpayments
              and underpayments CMS made on behalf of the beneficiaries.

      •       We estimated the total value of overpayments based on our sample results. (See
              Appendix B for our sample results and estimates.)

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                FINDINGS AND RECOMMENDATIONS

The diagnoses that CIGNA submitted to CMS for use in CMS’s risk score calculations did not
always comply with Federal requirements. For 60 of the 100 beneficiaries in our sample, the risk
scores calculated using the diagnoses that CIGNA submitted were valid. The risk scores for the
remaining 40 beneficiaries were invalid because the diagnoses that CIGNA submitted were not
supported for one or both of the following reasons:

          •    The documentation did not support the associated diagnosis.

          •    The diagnosis was unconfirmed. 7

CIGNA’s policies and procedures were not effective for ensuring that the diagnoses it submitted
to CMS complied with the requirements of the 2006 Participant Guide and the 2007 Participant

5
 For any HCC determined to be unsupported during either round of medical review, the medical review contractor
subjected the HCC to another review by staff unaware of the first reviewer’s determination. If the two reviewers
disagreed, the contractor’s medical director made the final determination.

6
    CIGNA disagreed with 24 of the 71 HCCs questioned in our draft report.
7
 The 2006 and 2007 Participant Guides state that physicians and hospital outpatient departments may not code
diagnoses documented as “probable,” “suspected,” “questionable,” “rule out,” or “working.” The Participant
Guides consider these diagnoses as unconfirmed. (See section 5.4.2 of the 2006 Participant Guide and section 6.4.2
of the 2007 Participant Guide.)


                                                         4
Guide. CIGNA’s contracts required providers to submit accurate claims that complied with all
Medicare requirements, and CIGNA officials stated that they relied on providers to submit
accurate diagnoses in their claims. However, providers often reported incorrect diagnoses as a
result of data entry errors and reported diagnoses for conditions that did not exist at the time of
beneficiaries’ encounters.

As a result of these unsupported and unconfirmed diagnoses, CIGNA received $151,453 in
overpayments from CMS. Based on our sample results, we estimated that CIGNA was overpaid
approximately $28,353,516 in CY 2007.

FEDERAL REQUIREMENTS

Regulations (42 CFR § 422.310(b)) state: “Each MA organization must submit to CMS (in
accordance with CMS instructions) the data necessary to characterize the context and purposes
of each service provided to a Medicare enrollee by a provider, supplier, physician, or other
practitioner. CMS may also collect data necessary to characterize the functional limitations of
enrollees of each MA organization.” The 2007 Participant Guide, section 8.7.3, and the 2006
Participant Guide, section 7.7.3, state that “MA organizations are responsible for the accuracy of
the data submitted to CMS.”

Pursuant to section 2.2.1 of the 2007 and 2006 Participant Guides, risk adjustment data
submitted to CMS must include a diagnosis. Pursuant to the 2007 Participant Guide,
section 7.1.4, and the 2006 Participant Guide, section 8.1.3, the diagnosis must be coded
according to the Coding Guidelines. Section III of the Coding Guidelines states that for each
hospital inpatient stay, the hospital’s medical record reviewer should code the principal diagnosis
and “… all conditions that coexist at the time of admission, that develop subsequently, or that
affect the treatment received and/or length of stay. Diagnoses that relate to an earlier episode
which have no bearing on the current hospital stay are to be excluded.” Sections II and III of the
Coding Guidelines state that “if the diagnosis documented at the time of discharge is qualified as
‘probable,’ ‘suspected,’ ‘likely,’ ‘questionable,’ ‘possible,’ or ‘still to be ruled out,’ code the
condition as if it existed or was established.”

Section IV of the Coding Guidelines states that for each outpatient and physician service, the
provider should “[c]ode all documented conditions that coexist at the time of the encounter/visit,
and require or affect patient care treatment or management.” The Coding Guidelines also state
that conditions should not be coded if they “… were previously treated and no longer exist.
However, history codes … may be used as secondary codes if the historical condition or family
history has an impact on current care or influences treatment.” Additionally, in outpatient and
physician settings, uncertain diagnoses, including those that are “probable,” “suspected,”
“questionable,” or “working,” should not be coded.

UNSUPPORTED HIERARCHICAL CONDITION CATEGORIES

To calculate beneficiary risk scores and risk-adjusted payments to MA organizations, CMS must
first convert diagnoses to HCCs. During our audit period, CIGNA submitted to CMS at least one
diagnosis associated with each HCC that CMS used to calculate each sampled beneficiary’s risk

                                                  5
score for CY 2007. The risk scores for 40 sampled beneficiaries were invalid because the
diagnoses that CIGNA submitted to CMS were not supported, confirmed, or both. These
diagnoses were associated with 59 HCCs. Appendix C shows the documentation error or errors
found for each of the 59 HCCs. These errors were for unsupported diagnosis coding and
unconfirmed diagnoses.

Unsupported Diagnosis Coding

The documentation that CIGNA submitted to us did not support the diagnoses associated with 53
HCCs. For 4 of the 53 HCCs, our medical reviewer determined other diagnoses to be more
appropriate. In these instances, the documentation supported HCCs that were different from
those that CMS used in determining the beneficiaries’ risk scores. The following are examples
of HCCs that were not supported by CIGNA’s documentation.

   •   For one beneficiary, CIGNA submitted the diagnosis code for “congestive heart failure,
       unspecified.” CMS used the HCC associated with this diagnosis in calculating the
       beneficiary’s risk score. However, the documentation that CIGNA provided indicated
       that the beneficiary visited the physician because of knee pain. The documentation did
       not support the diagnosis of congestive heart failure.

   •   For a second beneficiary, CIGNA submitted the diagnosis code for “major depressive
       disorder, recurrent episode, moderate.” CMS used the HCC associated with this
       diagnosis in calculating the beneficiary’s risk score. Although the documentation that
       CIGNA provided stated that the patient suffered from panic attacks and depression, the
       documentation did not distinguish between single or recurrent episodes; nor did it specify
       the onset, duration, or severity of the illness. The documentation supported a code for
       “depressive disorder, not elsewhere classified,” which does not have an associated HCC.

   •   For a third beneficiary, CIGNA submitted the diagnosis code for “venous embolism and
       thrombosis of the deep vessels of distal lower extremity.” CMS used the HCC associated
       with this diagnosis in calculating the beneficiary’s risk score. However, the
       documentation that CIGNA provided indicated that the patient’s chief complaint was
       lower extremity pain and circulatory concerns. According to the documentation, the
       venous Doppler ultrasound showed no evidence of venous embolism.

Unconfirmed Diagnoses

Six HCCs were unsupported because the diagnoses submitted to CMS were unconfirmed. For
example, for one beneficiary, CIGNA submitted a diagnosis code for “probable congestive heart
failure.” CMS used the HCC associated with this diagnosis in calculating the beneficiary’s risk
score. The documentation that CIGNA submitted noted that the provider determined a diagnosis
of “probable congestive heart failure” and ordered an echocardiogram for confirmation. The
results were not interpreted by the ordering physician. According to the 2006 and 2007
Participant Guides, diagnoses that are “probable,” “suspected,” “questionable,” or “working”
should not be coded.


                                               6
CAUSES OF OVERPAYMENTS

As demonstrated by the significant error rate found in our sample, CIGNA’s policies and
procedures were not effective for ensuring that the diagnoses it submitted to CMS complied with
the requirements of the 2006 and 2007 Participant Guides. CIGNA’s contracts required
providers to submit accurate claims that complied with all Medicare requirements, and CIGNA
officials stated that they relied on providers to submit accurate diagnoses in their claims.
However, providers often reported incorrect diagnoses as a result of data entry errors and
reported diagnoses for conditions that did not exist at the time of beneficiaries’ encounters.

ESTIMATED OVERPAYMENTS

As a result of the unsupported and unconfirmed diagnoses in our sample, CIGNA received
$151,453 in overpayments from CMS. Based on our sample results, we estimated that CIGNA
received approximately $28,353,516 in additional overpayments for CY 2007. However, while
an analysis to determine the potential impact of error rates inherent in FFS data on MA payments
was beyond the scope of our audit, we acknowledge that CMS is studying this issue and its
potential impact on audits of MA organizations. 8

Therefore, because of the potential impact of these error rates on the CMS model that we used to
recalculate MA payments for the beneficiaries in our sample, we (1) modified one
recommendation to have CIGNA refund only the overpayments identified for the sampled
beneficiaries rather than refund the estimated overpayments and (2) added a recommendation
that CIGNA work with CMS to determine the correct contract-level adjustments for the
estimated overpayments.

RECOMMENDATIONS

We recommend the following:

      •    CIGNA should refund to the Federal Government $151,453 in overpayments identified
           for the sampled beneficiaries;

      •    CIGNA should work with CMS to determine the correct contract-level adjustment for the
           additional $28,353,516 9 of projected overpayments.

      •    CIGNA should improve its current policies and procedures to ensure compliance with the
           Federal requirements.



8
    75 Fed. Reg. 19749 (April 15, 2010).
9
  This amount represents our point estimate of $28,504,969 less our identified overpayments of $151,453 for the
sampled beneficiaries. The confidence interval for this estimate has a lower limit of $20.7 million and an upper
limit of $36.3 million. See Appendix B.


                                                         7
CIGNA COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report and in followup communications, CIGNA disagreed
with our findings and said that our analysis, methodology, and extrapolation were flawed.
CIGNA also stated that our audit results did not account for error rates inherent in Medicare FFS
data, specifically the disparity between FFS claim data and FFS medical records data and the
disparity’s potential impact on MA payments. In addition, CIGNA said that we should have
used the 2006 Participant Guide to evaluate CIGNA’s compliance with CMS’s requirements.

CIGNA disagreed with the results of our first and second medical reviews for 24 HCCs and
provided us with additional documentation (not previously provided) as to why the HCCs were
supported. CIGNA stated that the medical records for 17 of the 24 HCCs were not coded
according to CMS’s coding guidelines, but added that CIGNA should be eligible for the
associated risk adjustment payments because it could support the underlying diagnoses through
other means. Because the documentation did not meet CMS’s coding guidelines, we did not
submit it to our medical review contractor. CIGNA stated, however, that the medical records for
the seven remaining HCCs complied with CMS’s coding guidelines. We submitted the
documentation for the seven HCCs to our medical review contractor for a third medical review
and revised our findings accordingly.

CIGNA stated that correcting errors made by our medical review contractor would reduce the
extrapolated overpayment to approximately $440,000.

CIGNA’s comments on our draft are included as Appendix D. We excluded the attachments to
the comments because they contained personally identifiable information.

Although an analysis to determine the potential impact of error rates inherent in FFS data on MA
payments was beyond the scope of our audit, we acknowledge that CMS is studying this issue
and its potential impact on audits of MA organizations. 10 Therefore, because of the potential
impact of these error rates on the CMS model that we used to recalculate MA payments for the
beneficiaries in our sample, we (1) modified one recommendation to have CIGNA refund only
the overpayments identified for the sampled beneficiaries rather than refund the estimated
overpayments and (2) added a recommendation that CIGNA work with CMS to determine the
correct contract-level adjustments for the estimated overpayments.

Regarding CMS’s 2006 Participant Guide, we based our findings on criteria set forth in CMS’s
2007 Participant Guide. After our review, we compared the data submission criteria in the 2006
and 2007 Participant Guides and determined that there were no substantive differences in the
criteria upon which we based our results.




10
     75 Fed. Reg. 19749 (April 15, 2010).

                                                8
Centers for Medicare & Medicaid Services Model

CIGNA Comments

CIGNA stated that the CMS payment model should not be used as an audit tool to compute
payment errors because (1) the determination of HCCs for payment is not equivalent to audit
evaluation of HCCs from medical records, (2) the CMS model was not designed to produce
results for individual members on audit, and (3) use of the CMS model for audit requires a
substantial adjustment to the applicable statistical confidence level.

Office of Inspector General Response

According to section 6.5 of the 2007 Participant Guide and section 5.5 of the 2006 Participant
Guide, reported diagnoses must be supported with medical record documentation. We used
medical records as inputs to support HCCs because medical records must support the diagnoses
that were used to assign the HCCs.

Our use of the CMS model and supporting medical records was consistent with the method that
CMS used to compute CIGNA’s monthly contract-level capitation payments. We agree that the
CMS model is designed to make a cost prediction for the average beneficiary in a subgroup, and
we have never asserted that the payments we recalculated after adjusting the risk scores based on
validated HCCs were any more or less accurate for a given beneficiary than what the CMS
model was designed to predict.

CMS officials told us that capitated payments made to MA plans for individual beneficiaries are
fixed and have never been retroactively adjusted. We estimated the overpayment amount using
the point estimate (Appendix B). Any attempt on our part to modify the CMS model to calculate
CIGNA’s CY 2007 payments would have been speculative and beyond the scope of our audit.

Random Sample

CIGNA Comments

CIGNA stated that our sample of 100 beneficiaries did not fully represent the 18,821 members
who had a risk score based on at least 1 HCC during our audit period. CIGNA said that because
only 47 of the 69 HCCs that appeared in the population were represented in our audit sample, our
sample did not accurately represent the population. CIGNA also stated that our failure to include
13,400 beneficiaries (who did not have an HCC) skewed “… the audit results in favor of a higher
alleged overpayment amount.”

Office of Inspector General Response

Our sample size of 100 beneficiaries provided a fair and unbiased representation of the 18,821
members in our sampling frame.




                                                9
A random sample is not required to contain one or more items from every subgroup within a
sampling frame because a very small HCC subgroup would have only a small probability of
inclusion in the sample. Of the 22 HCCs not represented in our sample, all had a frequency of
less than 1 percent of the sampling frame.

Our objective was to determine whether the diagnoses that CIGNA submitted to CMS for use in
CMS’s risk score calculations complied with Federal requirements. Beneficiaries who did not
have diagnoses originally reported to CMS were outside the scope of our audit.

Audit Methodology

CIGNA Comments

CIGNA stated that the extrapolation of the payment error to the entire membership of enrollees
with one HCC is not warranted in routine risk adjustment data validation (RADV) audits.
Specifically, CIGNA stated that there is no precedent for extrapolation under Medicare managed
care. CIGNA cited three previous audits for which we selected a statistical random sample but
did not recommend that the managed care plan refund extrapolated overpayments.

CIGNA also said that our extrapolation should be limited to instances in which plans have
exhibited a sustained level or pattern of errors and that “… [t]here has been no suggestion of
such a level or pattern in this audit.” CIGNA added that “[i]t is unfair and inappropriate to seek
contract-level extrapolated payment adjustments for the first year that payments to Medicare
Advantage organizations were 100 [percent] risk-adjusted.”

In addition, CIGNA stated that we should await further CMS guidance on adjustments intended
to correct significant deficiencies in the RADV audit methodology. Specifically, CIGNA stated
that any audit of the Medicare Advantage risk data must take into account the circumstances of
the underlying Medicare FFS data used to develop the model.

Office of Inspector General Response

Pursuant to the Inspector General Act of 1978, 5 U.S.C. App., our audits are intended to provide
an independent assessment of U.S. Department of Health and Human Services programs and
operations. Accordingly, we do not always determine, nor are we required to determine, whether
our payment calculation and extrapolation methodology are consistent with CMS’s
methodology.

The three audits to which CIGNA referred, in which we selected a statistical random sample but
did not recommend that the managed care plans refund extrapolated overpayments, used
different audit methodologies. Accordingly, we made recommendations to recover
overpayments in accordance with our policies and procedures for those audits.

For our audit of CIGNA, we designed our review to determine whether diagnoses that CIGNA
submitted for use in CMS’s risk score calculations complied with Federal requirements. In



                                                10
addition, we describe our payment error calculation and extrapolation methodology in
Appendixes A and B.

Our methodology to recalculate the MA payments was appropriate because we used the CMS
model to calculate CIGNA’s monthly contract-level capitation payments. An analysis to
determine the potential impact of error rates inherent in Medicare FFS data on MA payments
was outside the scope of this audit. However, in its Final Rule, “Medicare Program; Policy and
Technical Changes to the Medicare Advantage and the Medicare Prescription Drug Benefit
Programs,” CMS stated that there may be merit in further refining the calculation of payment
errors that result from postpayment validation efforts. 11 Given the potential impact of this error
rate on the CMS model that we used to recalculate MA payments, we modified our first
recommendation to seek a refund only for the overpayments identified for the sampled
beneficiaries. We also added a recommendation that CIGNA work with CMS to determine the
correct contract-level adjustments for the estimated overpayments.

Departure From 2006 and 2007 Participant Guides

CIGNA Comments

CIGNA stated that our review of medical records did not include certain processes included in
CMS’s 2006 and 2007 Participant Guides.

CIGNA stated that the independent medical reviewers should have included a physician to assess
whether any clinical factors may have changed the outcome in certain cases. CIGNA added that
to facilitate the audit process, it should have been given the identity of our medical reviewer
because medical record chart review is often a subjective process.

CIGNA said that when conducting RADV audits, CMS contracts with two independent medical
review contractors to conduct its medical reviews but that we did not. During CMS medical
reviews, one contractor facilitates the process and conducts the initial medical review of medical
records. Discrepancies identified by this contractor are subject to another review by a second
contractor. CIGNA added that the use of two contractors mitigates discrepancies and said that
our process did not provide the same procedural protections.

In addition, CIGNA said that we should have used the 2006 Participant Guide to evaluate
CIGNA’s compliance with CMS’s requirements.

Further, CIGNA stated that we should follow the CMS appeals process that would have allowed
CIGNA to provide additional medical record documentation to our medical reviewers. The 2006
and 2007 Participant Guides require MA organizations to submit a clearly documented reason
for disagreement with medical review findings.




11
     75 Fed. Reg. 19749 (April 15, 2010).

                                                 11
Office of Inspector General Response

We are not required by law to follow CMS guidance and regulations governing RADV audits.
Pursuant to the Inspector General Act of 1978, 5 U.S.C. App., our audits are intended to provide
an independent assessment of U.S. Department of Health and Human Services programs and
operations. We did not perform an RADV audit pursuant to the guidelines that CMS established
in its 2006 and 2007 Participant Guides. Those reviews are a CMS function. We designed our
review to determine whether diagnoses that CIGNA submitted for use in CMS’s risk score
calculations complied with Federal requirements.

Regarding CMS’s 2006 Participant Guide, we based our findings on criteria set forth in CMS’s
2007 Participant Guide. After our review, we compared the data submission criteria in both the
2006 and 2007 Participant Guides and determined that there were no substantive differences in
the criteria upon which we based our results.

Although we did not have two independent contractors review CIGNA’s medical record
documentation, we ensured that our medical review contractor had an independent review
process in place. If the initial medical reviewer identified discrepancies, another medical
reviewer, independent of the initial review and unaware of the first reviewer’s determination,
performed a second review. If the results of both reviews differed, the contractor’s medical
director made the final determination. If we found that medical records did not support one or
more assigned HCCs, we asked CIGNA to submit additional medical records. Any additional
records CIGNA provided went through the process described above.

Also, we accepted medical records CIGNA provided in addition to the “one best medical
record.” All HCCs that were not validated during the initial medical review were subjected to
the second medical review described above.

Physician Signature Attestations

CIGNA Comments

Our draft report included a finding regarding missing physician signatures or credentials.
CIGNA stated that we should follow CMS’s methodology of allowing physician signature
attestations to address any discrepancies due solely to missing or illegible physician signatures or
credentials in the documentation. CIGNA added that, as a result, we identified four HCCs that
were invalid because they did not have physician signatures and credentials.

Office of Inspector General Response

We did not initially accept physician attestations because the 2007 Participant Guide,
section 7.2.4.5, and the 2006 Participant Guide, section 8.2.4.4, state that documentation
supporting the diagnosis must include an acceptable physician signature. However, in keeping
with a 2010 change in Federal regulations (42 CFR § 422.311), we accepted attestations and
revised our findings accordingly.



                                                12
Limitations and Overreliance on Physician Coding Accuracy

CIGNA Comments

CIGNA stated that CMS’s methodology of limiting MA organizations to specific types of
medical records for risk adjustment purposes is too restrictive and ignores other sources that
would validate an HCC. CIGNA also said that it disagreed with CMS’s “one best medical
record requirement” for validation purposes. CIGNA added that some of the HCCs identify
chronic health care conditions that are not curable but that will not necessarily be diagnosed or
even noted on every medical record. CIGNA stated that the 2006 and 2007 Participant Guides
recognize the usefulness of alternative data sources and said that we should accept these sources
for risk adjustment purposes.

Office of Inspector General Response

As stated previously, we did not design our review to be a RADV audit, and we are not required
to follow CMS’s RADV audit protocol. Our use of the CMS payment model and supporting
medical records was consistent with the method that CMS used to compute CIGNA’s monthly
contract-level capitation payments. We also accepted medical records provided by CIGNA in
addition to the “one best medical record” required by the 2006 and 2007 Participant Guides to
help validate HCCs. CMS developed the payment model with inpatient, outpatient, and
physician records that are used to support HCCs. Therefore, we accepted and reviewed only
those types of records for CY 2006 dates of service. Regarding alternative data sources, the
sections of the 2006 and 2007 Participant Guides to which CIGNA referred prohibit MA
organizations from substituting alternative data sources for diagnoses from a hospital or
physician.

Additional Hierarchical Condition Categories

CIGNA Comments

CIGNA stated that, contrary to CMS practice, we did not consider additional HCCs that were
identified incidentally during the audit. Specifically, CIGNA said that we did not credit it for
HCCs that had been documented in the medical records and identified during the medical review
but not reported to CMS. CIGNA added that it would have received credit for these HCCs under
established CMS standards and practices. Further, CIGNA stated that we made explicit
representations to include “underpayments” (for incidental HCCs) in our audit and then later
retracted those representations.

Office of Inspector General Response

Our objective was to determine whether the diagnoses that CIGNA submitted to CMS for use in
CMS’s risk score calculations complied with Federal requirements. Additional diagnoses that
were not originally reported to CMS were outside the scope of our audit. Further, we did not
retract our representation regarding underpayments, but rather clarified that we did not consider
additional HCCs within the scope of our audit.

                                               13
Invalidated Hierarchical Condition Categories

CIGNA Comments

CIGNA said that our process should include “… a full, fair and independent review by a second,
qualified [medical review contractor] of the Plan’s position as to each of the 28 HCC
discrepancies and the additional HCC documentation and other information provided by the
Plan.”

CIGNA stated that it had conducted its own review of the 28 medical records and concluded that
24 of the HCCs invalidated by our medical record review contractor were supported by medical
record documentation. CIGNA provided us with additional documentation (not previously
provided) as to why the HCCs were supported. CIGNA categorized the disputed HCCs into 2
groups: additional documentation that complied with CMS coding guidelines (7 HCCs) and
additional documentation that did not meet coding guidelines but in which the clinical
assessment supported the appropriateness of the diagnosis (17 HCCs).

For the remaining four HCCs, CIGNA stated that a physician attestation was provided to resolve
discrepancies.

Office of Inspector General Response

We accepted and evaluated the additional documentation that CIGNA provided for the 24 HCCs.
In cases when CIGNA stated that the documentation met CMS coding guidelines, we submitted
the additional documentation to our medical review contractor for a third medical review. We
accepted the additional inpatient, outpatient, and physician records with CY 2006 dates of
services to help validate seven HCCs that met CMS coding guidelines and for which our medical
review contractor did not find support during the first two medical reviews. For the third
medical review, our medical review contractor followed the same protocol used during each of
the first two reviews. Our medical review contractor found support in this additional
documentation that validated three of the seven HCCs. We revised our findings accordingly.

We did not submit the documentation to our medical reviewers for the 17 HCCs that, as CIGNA
stated, did not comply with coding guidelines.

As previously discussed, we accepted attestations and revised our findings accordingly.

Policies and Procedures

CIGNA Comments

In response to our recommendation for improving its controls, CIGNA stated that it had
processes in place designed to prevent and detect coding errors for 2006 data submissions.
CIGNA also stated that it has education and audit programs “… in its effort to assure that
provider documentation and coding fully support the … codes submitted by [CIGNA] to CMS

                                               14
for risk adjustment.” CIGNA requested that this recommendation be removed from the final
report.

Office of Inspector General Response

We continue to recommend that CIGNA improve its current policies and procedures. CIGNA
officials stated that they relied on providers to submit accurate diagnoses in their claims.
However, providers often reported incorrect diagnoses as a result of data entry errors and
reported diagnoses for conditions that did not exist at the time of beneficiaries’ encounters.




                                               15
APPENDIXES
                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

SAMPLING FRAME

The sampling frame consisted of 18,821 beneficiaries on whose behalf the Centers for Medicare
& Medicaid Services paid CIGNA Healthcare of Arizona, Inc. (CIGNA), approximately
$210 million in calendar year (CY) 2007. These beneficiaries (1) were continuously enrolled
under contract H0354 during all of CY 2006 and January of CY 2007 and (2) had a CY 2007 risk
score that was based on at least one Hierarchical Condition Category.

SAMPLE UNIT

The sample unit was a beneficiary.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 beneficiaries.

SOURCE OF THE RANDOM NUMBERS

We used Office of Inspector General, Office of Audit Services, statistical software to generate
the random numbers.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in the sampling frame from 1 to 18,821. After
generating 100 random numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used Office of Inspector General, Office of Audit Services, statistical software to estimate
the total value of overpayments.
   APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                        Sample Results
                                       Number
Sampling   Sample     Value of     of Beneficiaries     Value of
 Frame      Size      Sample       With Incorrect     Overpayments
  Size                                Payments
 18,821     100      $1,111,970          40             $151,453


              Estimated Value of Overpayments
    (Limits Calculated for a 90-Percent Confidence Interval)


             Point estimate       $28,504,969
             Lower limit           20,700,567
             Upper limit           36,309,371
                                                                                       Page 1 of 2


                    APPENDIX C: DOCUMENTATION ERRORS IN SAMPLE

A        Unsupported diagnosis coding
B        Unconfirmed diagnosis

                                                                                     Total
                         Hierarchical Condition Category                     A   B   Errors
         Mechanical Complication of Cardiac Device, Implant, and Graft
    1    Due to Heart Valve Prosthesis                                       X         1
    2    Rheumatoid Arthritis                                                X         1
    3    Peripheral Vascular Disease, Unspecified                            X         1
    4    Unspecified Intestinal Malabsorption                                X   X     2
         Malignant Neoplasm of Small Intestine, Including Duodenum,
    5    Colon, Unspecified                                                  X         1
    6    Congestive Heart Failure, Unspecified                               X         1
         Other Specified Peripheral Vascular Diseases, Other, and Venous
         Embolism and Thrombosis of Deep Vessels of Proximal Lower
    7    Extremity                                                           X   X     2
         Nephritis and Nephropathy, Not Specified as Acute or Chronic, in
    8    Diseases Classified Elsewhere                                       X         1
    9    Septic Shock                                                        X         1
         Occlusion or Cerebral Arteries, Cerebral Artery Occlusion,
    10   Unspecified                                                         X         1
         Venous Embolism and Thrombosis of Deep Vessels of Distal
    11   Lower Extremity                                                     X         1
         Atherosclerosis of the Extremities With Intermittent Claudication
    12   and Peripheral Vascular Disease, Unspecified                        X         1
         Diabetes With Renal Manifestations, Type II or Unspecified Type,
    13   Not Stated as Uncontrolled                                          X         1
    14   Congestive Heart Failure, Unspecified                               X   X     2
    15   Malignant Neoplasm of Colon, Splenic Flexure                        X         1
    16   Esophageal Varices With Bleeding                                    X         1
    17   Atherosclerosis of Aorta                                            X         1
         Diabetes With Neurological Manifestations, Type II or
    18   Unspecified Type, Uncontrolled                                      X         1
    19   Polyneuropathy in Diabetes                                          X         1
    20   Major Depressive Disorder, Single Episode, Unspecified              X         1
         Secondary Malignant Neoplasm of Respiratory and Digestive
    21   Systems, Lung                                                       X         1
    22   Anterior Horn Cell Disease, Unspecified                             X         1
    23   Hypoxemia and Acute Respiratory Failure                             X         1
                                                                                      Page 2 of 2


                                                                                    Total
     Hierarchical Condition Category                                       A    B   Errors
     Acute Myocardial Infarction, Unspecified Site, Subsequent
24   Episode of Care                                                       X          1
25   Atrial Fibrillation                                                   X          1
     Diabetes Mellitus Without Mention of Complication, Type II or
26   Unspecified Type, Not Stated as Uncontrolled                          X          1
27   Cauda Equina Syndrome With Neurogenic Bladder                         X          1
28   Congestive Heart Failure, Unspecified                                 X          1
29   End-Stage Renal Disease                                               X          1
30   Hypoxemia                                                             X          1
31   Malignant Neoplasm of Prostate                                        X          1
32   Chronic Airway Obstruction, Not Elsewhere Classified                  X          1
33   Major Depressive Disorder, Single Episode, Moderate                   X          1
34   Cerebral Artery Occlusion, Unspecified, With Cerebral Infarction      X          1
35   Chronic Kidney Disease, Unspecified                                   X          1
36   Epilepsy, Unspecified, Without Mention of Intractable Epilepsy        X          1
37   Major Depressive Disorder, Recurrent Episode, Moderate                X          1
38   Chronic Airway Obstruction, Not Elsewhere Classified                  X          1
39   Other Primary Cardiomyopathies                                        X          1
     Acute Myocardial Infarction of Other Anterior Wall, Initial
40   Episode of Care                                                       X          1
41   Unspecified Immunity Deficiency                                       X          1
42   Acute but Ill-Defined Cerebrovascular Disease                         X          1
43   Chronic Airway Obstruction, Not Elsewhere Classified                  X          1
44   Decubitus Ulcer, Elbow                                                X          1
45   Cerebral Artery Occlusion, Unspecified, With Cerebral Infarction      X          1
46   Intermediate Coronary Syndrome                                        X          1
47   Congestive Heart Failure, Unspecified                                 X    X     2
     Other Disorders of Arteries and Arterioles, Stricture of Artery and
     Phlebitis and Thrombophlebitis, of Deep Vessels of Lower
48   Extremities, Other                                                    X    X     2
     Other Disorders of Pancreatic Internal Secretion, Other Specified
49   Disorders of Pancreatic Internal Secretions                           X          1
50   Chronic Airway Obstruction, Not Elsewhere Classified                  X          1
51   Pathologic Fracture of Vertebrae                                      X    X     2
52   Major Depressive Disorder, Recurrent Episode, Unspecified             X          1
53   Cardiac Dysrhythmias, Paroxysmal Supraventricular Tachycardia         X          1
     Total                                                                 53   6    59
                                                                                                        Page 	1 of 47


                              APPENDIX D: CIGNA COMMENTS




Kristi Thomason
VP, Medicare Administration




                                                                                  1100 1 N. Black Ca nyon Hwy.
                                                                                  Phoenix, AZ 85029
                                                                                  Telephone 602.371.2699
                                                                                  Facs imile 602.3 71.2370
                                                                                  kristi.thomason@ci gna.com




                                         November 29, 20 10

VIA OVERNIGHT MAIL

}latrick J. Cogley
Regional Inspector General
  for Audit Services
Department of Health and Human Services
Office of Inspector General
Office of Audit Services
Region VII
601 Eas t 121h Street, Room 0429
Kansas City, Missouri 64106


          Rc: 	 Draft Audit Report No. A-07-10-01082
                Risk Adjustment Data Validation of Payments Made to CIGNA HealthCare
                of Arizona, Inc. for Calendar Year 2007 (Contract H0354)

Dear Mr. Cogley:

          We are in receipt of the above-referenced draft report on the risk adjustment data
v alidation ("RADV") audit of CIO NA H ealth Care of Arizona, Inc. (the "Plan" ) for calendar year
2007 (the "Draft Report"). We appreciated the oppo rtunity to meet w ith you and other
r epresentatives from the Office ofinspector General ("OIG") Office of Audit Services on September
21,2010 to discuss the Plan's concerns regarding the OIG's audit and the Draft Report. Thi s
Jetter together with the attached exh ibits and additional documentation being provided constitute
the Plan's response to the Draft Report' s preliminary findings and recommendations (the
..Response"). For all of the reasons stated below, the Plan does not concur with the two
r ecommendations made in the Draft Report.
                                                                                                              Page 2 of 47




I.      INTRODUCTION

        The Draft Report. indicates that the OIG provides auditing services for the Department of
Health and Human Services ("HHS") and that "[t]hese assessments help reduce waste, abuse,
and mismanagement and promote economy and efficiency throughout HHS." A key objective of
risk adjusted payments to Medicare Advantage organizations is to encourage the provision of
coverage to chronically ill Medicare beneficiaries who require a higher level of care than the
average Medicare beneficiary. 1 However, the OIG audit process to date h as accomplished
neither of these goals and instead, has achieved quite the opposite. The flaws in the methodology
and processes used by the OIG in performing the audi t have resulted in Draft Report findings and
a recommended adjustment that are erroneous, exaggerated, inequitable and inconsistent with the
goals ofthe risk adjustment p ayment methodology.2

        The Draft Report is based on an audit sample of only 100 Plan members out ofthe
approximately 32,260 total Plan members enrolled during that time frame. Of those I 00
members, the Draft Report makes findings with respect to 43 members and a recommended
payment adjustment of$23,635,074 on an extrapolated basis. The Plan does not concur with this
recommendation. That the OIG could arrive at an adjustment of such magnitude based on 43
members is unfathomable. While there is always an inherent ri sk that monthly payments from
CMS will be insufficient to cover the costs incurred in providing coverage to Medicare members,



1
 In OIG Report No. A·OS-00-00015, the OIG reported that " [r]isk adjustment factors will produce
payments that more closely reflect the costs of providing care and reduce the disincentive to enroll sicker
beneficiaries."
2
  The goal of risk adjustment is to pay Medicare Advantage organizations "accurately and fairly by
adjusting payment for enrollees based on demographic and health status." 2006 Risk Adjustment Data
Basic Training for Medicare Advantage Organizations Participant Guide (the "2006 Participant Guide")
at p. 1-1. In addition, the goal ofthe Centers for Medicare and Medicaid Services ("CMS") in selecting
the CMS-Hierarchical Condition Category ("HCC") risk adjustment model was "to select a clinically
sound risk adjustment model that improved payment accuracy while minjmizing the admirustrative
burden on MA orgaruzations." Jd. at p. 1-4 (emphasis added). The logic of the Draft Report suggests
that the only way to avoid an extrapolated amount of the magnitude at issue here would be to conduct a
review of underlying medical records supporting each diagnosis code billed by a provider. As the Plan
processes over one mi llion claims per year (excluding pharmacy), such a review would not serve to
minimize the Plan's administrative burden.




                                                     2
                                                                                                    Page 3 of 47




Medicare Advantage organizations address that risk during the bid process by developing a bid
that reflects the organi zation's best estimate of its anticipated health care costs in providing
coverage to its members during that year. No Medicare Advantage organization, when pricing
its bid for the 2007 contract year, could reasonably have anticipated that three years later, the
OIG would recommend an unsupported retroactive payment adjustment of the size at issue in
this audit, using the flawed methodology described in this Response. The Plan's objections are
not a self-serving attempt to retain amounts to which it is not entitled. Rather, the Plan's
objections reflect legitimate concerns regarding the government's recommendation for
retroactive payment adjustments based on data and an audit methodology that are flawed.

         Furthermore, applying retrospective adjustments to Medicare Advantage organization's
risk scores undermines the actuarial soundness of the Medicare Advantage bidding and payment
process. Retroactive contract-level adjustments based on the alleged lack of support for every
physician-submitted diagnosis is totally inconsistent w ith the Medicare Advantage bidding
process wherein a Medicare Advantage organization's supplemental benefits, member
premiums, program savings, payments, and targeted margins are based on assumptions and
methodologies known at the time the bid is prepared and submitted to CMS in the preceding
June for the upcoming contract year (i.e., JW1e 2006 for 2007 contract year). This is
demonstrated by the example set forth in Exhibit I.

II. 	    BACKGROUND ON RISK ADJUSTMENT PAYMENT METHODOLOGY AND
         RISK ADJUSTMENT DATA VALIDATION AUDITS

         Congress created the Medicare+Choice program through the establishment of Medicare
Part Cas part of the Balanced Budget Act of 1997 (the "BBA"). 3 Although private health plans
had contracted with Medicare on a limited basis to provide services to eligible beneficiaries since
the 1970s, the Medicare+Choice program was created to s ignificantly increase the relationship
between private health plans and Medicare. Prior to the BBA, payments to health plans for
managing Medicare beneficiaries' health care were based on fee-for-service ("FFS")




3   Pub. L. No . 105-33.




                                                   3
                                                                                                           Page 4 of 47




expenditures, adjusted by geographic area and certain demographic factors (e.g., age, gender,
working aged status, and Medicaid eligibility). Medicare+Choice began a transition from a
demographic-based payment model to a model that uses a member's actual health status to
                                     4
estimate future health care costs.

          In 2003, Congress revamped the Medicare Part C program through the creation of the
Medicare Advantage or "MA" program. Under the MA program, health plans are paid a
capitated, risk-adjusted monthly fee for each member based upon the member's overall health.
Medicare members are assigned a risk score that reflects their health status as determined from
data submitted during the previous calendar year. The risk adjustment methodology utilizes
diagnosis codes as specified by the International Classification of Disease, currently the Ninth
Revision Clinical Modification guidelines ("ICD-9"), to determtne members' risk scores, which
are used to prospectively adjust capitation payments.

          The current risk adjustment mode l employed in adjusting Medicare Advantage
organizations' payments is known as the CMS-HCC payment model. 5 The CMS-HCC payment
model (also referred to as the "Pope Model") categorizes ICD-9 codes into disease groups called
Hierarchical Condition Categories or "HCCs." Each HCC includes diagnosis codes that are
related clinically and have similar cost implications. Different values are assigned to each HCC
relative to other HCCs based on an assessment of the underlying Medicare FFS expenses over a
large population associated with each HCC's constellation of ICD-9 codes. Effective for the
2007 contract year, the demographic-adjusted payment methodology was completely phased out
for Medicare Advantage organizations, with the result that 100% of each monthly payment for a
Medicare Advantage member is risk-adjusted 6




4
    Sherer, R., Th e Failure ofMedicare+ Choice, Geriatric Times 2003; 4:4-5.
5
 Pope, G.C., Kautter, J., Ellis R.P. , et a!. , Risk Adjustment ofMedicare Capitation Payments Using the
CMS-HCC Model, Health Care Financing Review 25(4):119-14 1, Summer 2004 .
6 42   U.S.C. § J395w-23(a)(I)(C).




                                                      4
                                                                                                         Page 5 of 47




        As CMS phased in the health status risk adjustments over the period from 2000 through
2006, the financial impact of risk adjustment data became more significant and the complexities
of the process increasingly apparent. CMS provided instructions to Medicare Advantage
organizations regarding the submission of risk adjustment data through its annual Participant
Guides.7 The 2008 Participant Guide differed from the prior Participant Guides in at least one
significant respect and to the disadvantage of Medicare Advantage organizations. The 2008
Participant Guide eliminated the ability of Medicare Advantage organizations to submit, on
appeal and in support of the HCC payment received, the breadth ofmedical record
documentation previously permitted under the 2006 and 2007 Participant Guides. 8

        In another development important to this Response, in July 2008, CMS announced a pilot
project to more extensively audit Medicare Advantage organizations for payment year 2007
based on calendar year 2006 dates of service. 9 In its notice, CMS announced its intent to make
contract-level payment adjustments using extrapolated payment error findings based on a sample
of members from each Medicare Advantage organization selected for audit. This was a major
change to CMS' RADV audit approach and signaled for the first time CMS' intent to recover
contract-level payments from Medicare Advantage organizations. Prior to the pilot project,
payment adjustments were limited to member-level adjustments for those members sampled in




7
  For the 2007 calendar year, CMS payments were made based on 2006 dates of service. Accordingly,
Medicare Advantage organizations relied on the 2006 Participant Guide to train providers how to code
diagnoses and to submit ICD-9 codes to CMS in 2006. The 2007 Participant Guide, upon which the OIG
incorrectly relied in perfonning this audit , was not released until December 2007.
8 Compare 2006 Participant Guide at p. 8-19 and 2007 Participant Guide at p. 7-21 to 2008 Participant
Guide at pp.7-21 and 22. Specifically, the 2006 and 2007 Participant Guides allow Medicare Advantage
organizations to submit additional clinical documentation ifthe reviewers find that the one best medical
record does not support the HCC. The 2008 Participant Guide eliminated the right to submit additional
documentation, leaving Medicare Advantage o rganization~ with only the right to dispute the reviewers'
findi ng that the one best medical record did not support the I-ICC. The OlG has represented both on page
I of the Draft Report and in comments made to the Plan during the September 21, 20 I 0 meeting that it
does not intend to apply the sub sequently-issued and more restrictive 2008 Participant Guide to this 2007
payment year audit but rather, the 2007 version of the Participant Guide.
9
  See CMS Memorandum, Medical Record Request Instructions for the Pilot Calendar Year 2007
Medicare Part C Risk Adjustment Data Validation, July 17, 2008.




                                                     5
                                                                                                             Page 6 of 47




the payment validation audit.
                                      1
                                       ° CMS did make one significant accommodation to Medicare
Advantage organizations in view of the potential impact of contract-level payment adjustments
pursuant to the pilot and subsequent RADV audits -- CMS allowed Medicare Advantage
organizations to submit physician attestations for physician and outpatient hospital records that
                                                                              11
were missing or had illegible physician signatures and/or credentials.

           Most recently, in April 2010, CMS finali zed a regulation governing its RADV dispute
                               12
and appeals procedures.             CMS incorporated into its regulations the "one best medical record"
standard and other limitations on acceptable documentation that Medicare Advantage
organizations may submit to support an HCC. However, in the preamble to the final rule, CMS
indicated its intent to develop and release for public comment its RADV audit and extrapolation
methodology. Significantly, this methodology has not yet been released (see discussion in
                          13
Section V.B, below).           It is anticipated that this further guidance will go far towards correcting
inequitieS that currently exist in the OIG audit process as described in this Response.

           CMS has given varying degrees of consideration to issues negatively impacting Medicare
Advantage organizations related to the development of ri sk adjustment data collection and
                                                                   14
validation policies and regulation s over the past few years.           However, in assessing the accuracy




10
   74 Fed. Reg. 54634, 54674 (Oct. 22, 2009). To the Plan's know ledge, CMS has not yet released any
RADV audit report wherein CMS extrapolated payment errors to the contract level.
11
   S ee "MA and Part D Data: Who, What, Where, and How ," page II (Tom Hutchinson, 9/15/09 Slide
Presentation to America's Health Insurance Plans ("AHlP")); See also, 75 Fed. Reg. 19678, 19742 (April
15, 20 10).
12
     75 Fed. Reg. 19678 (Apri l1 5, 2010) (codified at 42 C.F.R. §§ 422.2 and 422.31 1).
13
   Jd. at 19746 (CMS "intend[s] to publish its RADV methodology in some type ofpublic document- most
likely, a Medicare Manual, so that the public can review and provide comment as it deems necessary.
Finally, to ensure that audited organizations understand how their RADV error rate was calculated, as
indicated in our proposed rule, we further intend to describe our RADV methodology in each audit.")
14
   In a 2008 rulemaking, CMS expanded the data that it could co Llect for risk adjustment purposes to
include data regarding each item and service provided to a Medicare Advantage plan member in order to
improve the accuracy of risk adjustment payments. See 73 Fed. Reg. 48434 (August 19, 2008).
According to the preamble, "once encounter data forMA enrollees are available, CMS would have
beneficiary-specific information on the utilization of services of MA plan enrollees. These data could be
                                                                                             (continued ...)


                                                        6
                                                                                                       Page 7 of 47




ofCMS risk-adjusted payments to the Plan in the 2007 contract year, the OIG has entirely failed
to consider the complexities ofthe risk adjustment payment system or to follow the procedures
CMS has indicated are important to the fair conduct ofRADV audits.

Ill. 	 THE PLAN'S CONCERNS WITH THE DRAFT REPORT'S FINDINGS AND
       RECOMMENDATIONS

       Sections IV and V below describe major flaw s in the OIG's RADV audit methodology,
including application of the CMS-HCC payment model to this audit without an appropriate
confidence level adjustment, inadequate sampling techniques, and proceeding without the benefit
offorthcoming CMS guidance on an appropriate adjustment to be applied. Any decision to
proceed further with the audit's current recommendations based on such faulty logic renders th e
OIG audit process indefensible.

       Even if these substantive audit deficiencies are overlooked, Sections VI and VII go on to
detail that the findings of the OIG's unidentified Medical Review Contractor ("MRC") regarding
the specific 60 HCCs which form the basis for the OIG's extrapolation include significant errors.
The Draft Report identifies 60 discrepancies 15 out ofthe 314 audi ted HCCs for 43 of the 100
members in the audit sample. According to the Draft Report, these alleged discrepancies
resulted in an overpayment to the Plan of$169,341 for the 43 members and a staggering
estimated total overpayment to the Plan of$23,635,074 when extrapolated over the 18,821 Plan
members with at least one HCC.

       However, as further outlined in Exhibits 2 and 3, these findings are to a large extent
erroneous and accordingly the Plan is entitled to offset a considerable amount from the contract­
level adjustment recommended in the Draft Report. Specifically, the Plan has validated 28 of the


(continued)

used to calibrate the CMS-HCC risk adjustment models using MA patterns of diagnoses and
expenditures." /d. at 48651.
15
   The Fact Sheet provided by the OIG at the November 2009 exit interview identified 59 HCC
discrepancies. In December 2009, the OIG provided the Plan with an additional HCC discrepancy, for a
total of 60 as indicated in the Draft Report.




                                                  7
                                                                                                            Page 8 of 47




60 alleged HCC discrepancies. Seven (7) HCCs met coding guidelines in effect on the date of
service, seventeen (17) HCCs are supported by clinical assessment of the appropriateness of the
diagnosis coded, and four (4) HCCs have been resolved by physician attestations as are allowed
by CMS RADV procedures. Correcting for these 28 HCCs reduces the alleged $169,341 sample
error by $69,026 to $100,314 and reduces the alleged $23.6 million extrapolated error amount by
approximately $11.8 million to $11.7 million on a contract-level basis. Further, the Plan has
identified nine (9) additional HCCs for the sampled members which the Plan had not previously
                                                                       16
reported and which were not identified by the OIG or its MRC, despite the fact that the OIG
expressly represented to the Plan that it would consider such underpayments in its findings and
           17
results.        Correcting for these 9 additional HCCs and two (2) disease interaction errors made by
the OIG as described in Exhibit 5 further reduces the alleged sample error by another $28,675
and reduces the alleged extrapolated error by another $6.5 million on a contract le~el basis. 18

           Accordingly, even if the fatal flaws in the OIG's methodology identified below are
disregarded, correction of the MRC's errors in reviewing the 60 HCCs and then offsetting the
additional HCC underpayments as promised would together reduce the alleged overpayment on a
member level by $97,702 to $71,639 and reduce the alleged extrapolated overpayment by
$18,333,970 to approximately $5.2 million.




16
     See Sections VII, VIII and Exhibit 3 for a detailed discussion of these four categories ofHCCs.
17
  See Exhibit 4, which is the OIG's Entrance Conference Agenda for the audit. The agenda provides that
the OIG "will also consider underpayments in our results. " The OIG's subsequent retraction at the
September 21, 2010 meeting of its explicit representation that the audit would take underpayments into
account is discussed in Section VII .D of this Response.
18
   In two cases, the payment adjustments calculated by the OIG for alleged HCC discrepancies reflected
incorrect computations of disease interactions that comprise the CMS-HCC payment model. In one
example, the OIG indicated that an error existed for a disease interaction that never impacted the member
in the first place. Put another way, the OTG incorrectly assigned a disease interaction to the member for
purposes of its analysis and then disallowed the disease interaction in the repayment calculation. These
errors are corrected in the dollar adjustments described here and in Exhibit 2. Correcting for these two
errors, reduces the extrapolated adjustment amount by over $1.1 million. See Exhibit 5.




                                                       8
                                                                                                   Page 9 of 47




IV. 	   THEOIGRADV AUDIT METHODOLOGY IS FATALLY FLAWED

        Although the OIG asserts in its Draft Report that it used generally accepted auditing
standards, it did not. As discussed in this Section IV, in conducting its audit and extrapolating an
overpayment amount, the OIG disregarded several crucial aspects of risk adjustment and
therefore biased the results and grossly exaggerated the alleged overpayment amount.

        A. 	   The CMS-HCC Payment Model Should Not Be Used as an Audit Tool

               1. 	    Determination ofHCCs for Pavment is Not Equivalent to Audit
                       Evaluation ofHCCs from Medical Records

        Differences between HCCs derived from ICD-9 codes in claims or encounter data that
are used by CMS for payment ("Payment HCCs") and HCCs subsequently derived from medical
records upon audit ("Audit HCCs") are not payment errors, but are the result of two different
inputs into the CMS-HCC payment model. See Exhibit 6.

        First, the process of identifying Payment HCCs from ICD-9 codes is very different than
the process of identifying HCCs from review ofthe underlying medical records for audit.
Payment HCCs (used by CMS for 2007 payments) were derived by mapping ICD-9s through
diagnosis groups, then condition categories, and applying hierarchies to arrive at HCCs.
However, under the OIG RADV Audit HCC process, a sample of 100 members was selected and
a determination made as to whether each Payment HCC assigned to each member was supported
by "one best medical record" from the previous year. To the extent that the OIG MRC medical
record review did not support the same Payment HCC assigned based on the submitted claim or
encounter data, a payment error was identified. These very different processes for determining
HCCs likely account for much of th e inconsistency found between HCCs determ ined for
payment and HCCs examined upon audit.

        Second, information contained in ICD-9 codes is not equal to the information contained
in the underlying medical records. Studies have shown that the diagnosis codes contained in




                                                 9
                                                                                                      Page 10 of 47




claims or encounter forms are inconsistent with diagnoses contained in medical records. 19 This
inconsistency between Payment HCCs derived from ICD-9 codes in claims or encounter data
and Audit HCCs derived from medical records is recognized in the industry.~ 0 There are a
number of reasons why Payment HCCs are not equal to Audit HCCs. As noted above, the
process used to determine HCCs from ICD-9 codes is different from the process used to develop
HCCs from medical records. Further, coding and medical records in many cases contain
different information. Reasons for this are many, and may include the lack of documentation in
either claims or medical records; ambiguities in coding specific conditions; errors in coding or
medical records; or differences in interpretation of medical notes, including lab results.
Discrepancies and errors in diagnosis codes are well documented; indeed, CMS conducts regular
coding audits and reports coding discrepancies and errors. 2 1 In fact, the authors of the CMS­
HCC payment model themselves acknowledged the presence ofjudgment in coding and coding
errors: "Concern about the quality of diagnostic reporting is the greatest in physician offices,
where the diagnoses have not heretofore affected payment, and recording of diagnoses is less
rigorously practiced than in hospitals."22

          Finally, even ifAudit HCCs is an imprecise, but unbiased estimate of Payment HCCs,
then the restrictive audit procedures used by the OIG in its audit of the Plan, including (i)
inability of the Plan to introduce previously unreported HCCs, (ii) "one best medical record,"
and (iii) excluding all Plan members with no HCCs from the audit, would result in a bias toward
decreasing the number ofHCCs and lower capitation payments. Given the inexact relationship
between Audit HCCs and Payment HCCs and the one-sided audit rules listed above, OIG RADV
audits will almost always result in equal or f ewer HCCs and equal or lower capitation payments.



19
   See e.g., Measuring Diagnoses: lCD Code Accuracy, Health Service Research 2005 October; 40 (5 Pt
2): 1620-1639. This article can be obtained at: http://www.ncbi.nlm.nih.gov/pmc/articles!PMC136l216/.
20 ld.
21
   Semiannual reports are available at http://www.cms.gov/apps/er report. According to the Medicare
Fee-For-Service Improper Payments Report for November 2009, for example, improper coding
contributed to a national error rate of7.8%.
22
     Pope, supra at note 5, p. 121.




                                                  10
                                                                                                  Page 11 of 47




       In sum, there are a number of reasons why HCCs determined from ICD-9 codes are not
equal to HCCs identified from medical records. Although efforts to reduce coding errors are
important, errors are unlikely to ever be completely eliminated as long as coding involves human
interpretation, judgment and data entry.

               2. 	   The CMS-HCC Payment Model was Not Designed to Produce Results for
                      Individual Members on Audit

       The CMS-HCC payment model was developed to assign HCCs and predict costs over
large populations. It was not designed to produce resu lts for individual members. The model is
u sed to take Medicare FFS data and from that data, determine the HCCs and make cost
predictions for the aver age member with those particular HCCs in a relatively large subgroup.
However, this average cost prediction does not accurately represent the costs associated with any
one individual with a particular HCC or constellation ofHCCs. There is sub stantial, unexplained
variation among individual members with the same HCCs that is not accounted for. The CMS­
HCC payment model simply was not designed to make accurate predictions of capitation
payments as to any one individual member. Nevertheless, the OIG has used the CMS-HCC
payment model as an audit tool to calculate a member-specific payment adjustment for each of
the 43 members, and to then extrapolate the member-specific adjustments back out again across
a diverse membership which to a significant extent, has a different set ofHCCs. (See Exhibit 7).

       This statistical error is referred to as an ecological fallacy, which is the erro neous
assumption that individual members of a group have the average characteristics of the group at
large. It is simply not accurate to make inferences abo ut the nature of specific elements of a
population based solely upon aggregate statistics collected for the group to which those
individuals belong. Predictions made using the CMS-HCC payment model should only be
applied to large populations ofbeneficiaries to ensure that random b ut significant differences
among beneficiaries that are not captured by ICD-9 codes do not produce predicted capitation
payments that deviate dramatically from actual values. Indeed, in the CMS-HCC payment
model, all of the comparisons of predictive accuracy are made for large subcategories of




                                                  11
                                                                                                       Page 12 of 47




beneficiaries. Even as to some of those subgroups, the model can under or overpredict by as
much as 30%.23

          The inaccuracy of the OIG's methodology is apparent when one considers that the Plan's
actual 2007 costs in providing coverage to the 43 members exceeded CMS capitation payments
to the Plan for the same 43 members by over $525.000, and actual 2007 costs for all 100 sampled
members exceeded CMS payments to the Plan for those members by over $800,000. (See
Exhibit 8.) According to the OIG, " [t]hc implementation of risk adjustment to the [Medicare
managed care] payment system should lessen the disparity between Medicare payments and
individual beneficiaries' medical costs."24 The Plan's analysis show s that, even with risk
adjustment, there is a significant disparity between costs incurred to cover chronically ill
beneficiaries and CMS risk-adj usted payments for those m embers. This disparity is substantially
expanded b y the OIG's recommended retroactive contract-level payment adjustment.

                  3. 	    Use of the CMS-HCC Payment Model for Audit Requires a Substantial
                          Adjustment to the Applicable Statistical Confidence Level

          As discussed above, it is inappropriate to use the CMS-HCC payment model as an audit
tool. Ifused as such, a significant adjustment to the confidence interval computed b y the OIG is
required. The predictive accuracy of the CMS-H CC payment model is not that high even in
predicting total aggregate capitation payments over large subpopulations of the data. 25 Thus, it is
not surpri sing that the predicti ve accuracy of the model is low when applied to a very small
sample such as the 100 members sampled in this audit.

          To arrive at the estimated overpayment in this case, the OIG computed a standard 90%
confidence interval based on th e extrapolation of the results from the sample of 100 audited
members to the population. The OIG's payment request is based on the lower bound of this


23
     Pope, supra at note 5,, Tables ES-3 through ES-6.
24
     OIG Memorandum enclosing OIG Report No. A-05-00-00015 at p. 2 .
25
  The authors also devote significant sections of their report to discussions of the accuracy and in
particular validation of the CMS-HCC payment model vis-a-vis several large subsets of the data. (See
Pope, supra at note 5, Section 4.7, pp. 4-1 3 to 4-20).




                                                     12
                                                                                                   Page 13 of 47




confidence interval, to account for an estimate with high variability. However, the OIG
calculation includes only the variance which arises from the fact that a sample rather than the full
population was audited ("sampling variability''). The OIG's analysis is incomplete because it
overlooks the crucial fact that the audit process itsel(is based on a "regression model." A
regression model is a statistical tool used to model relationships between multiple variables
based on a set of data and an underlying model of how the variables interact. The CMS-HCC
model is really no different conceptually than any other regression model used to make
predictions .

           For.example, one might consider a regression model which attempts to predict how much
a particular drug lowers blood pressure, based on the weight of the patient. Even ifsuch a model
were estimated with a large set ofunderlying data on patients treated with the drug, the
predictions would vary considerably due to other factors (such as gender and age) as well as the
underlying variability in blood pressure (which can fluctuate throughout the day based on
activity level). The high variability in the underlying data leads to a model whose predictions are
more imprecise, which in turn requires wider confidence intervals around those predictions.

           In the case of the CMS-HCC payment model, the underlying regression models utilize
                                                                                      6
dozens of predictive variables, most related to various categorizations of diseases? The CMS­
HCC payment model can underpredict or overpredict significantly, even for large subsets
                                        27
containing thousands of patients.

           In order to assess the uncertainty of the CMS-HCC payment model as applied to the Plan
and then translate that uncertainty into a further appropriate adjustment to the confidence levels


26
   In chapter 5, Diagnosis-Based Risk Adjustment Models, the authors of the CMS-HCC payment model
state: "In this chapter, we use the Medicare 1996/1997 5 percent sample analytic data described in
Chapter 2 to estimate, develop, refine, and evaluate DCG/HCC prospective diah'llosis-based risk
adjustment model s. A series of regression models are fit to the data, modified to enhance clinical
credibility, and examined for their performance as risk adjustment models. We calculate measures of
predictive accuracy of models at the individual level and for significant subgroups of Medicare
beneficiaries." The estimated coefficients and other sununary stati stics for the baseline model are
contained in Pope, supra at note 5, Tables 4.1 and 4.2, pp. 4-25 and 4-26).
27
     Pope , supra at note 5, Table 4.8, pp. 4-55 to 4-57 .




                                                         13
                                                                                                         Page 14 of 47




applied by the OIG, the Plan used the approach outlined in detail in Exhibit 9. The calculations
outlined in Exhibit 9 result in a lower level confidence bound of$12,727,724 which is much less
than the OIG-reported lower confidence bound of$23,572,284. Assuming that the Plan prevails
on its arguments that the MRC's alleged HCC discrepancies are erroneous, the resulting lower
confidence bound would be negative $4,012,472 -- significantly less than the lower confidence
bound of$5,238,314 described in Exhibit 9 at p. 4 (which includes only sampling variability and
excludes the variability in the CMS-HCC payment model.) This lower confidence bound, which
is less than zero, clearly demonstrates that the variance in the health status of the 18,821 Plan
members from whom the sample was drawn is very high and supports a determination in this
case that the oveq>ayment is not different from zero.

        Although statistical experts might propose different ways to obtain a more precise
measure ofthe additional variance introduced into this RADV audit through the use of the CMS­
HCC payment model, in the end, there can be no doubt that any adjustment made to the
regression model in this case to account for the variability inherent in the CMS-HCC payment
model will necessarily result in a lower confidence bound, and it is more than likely a significant
reduction.

        B. 	    The OIG Audit Sample is Not Fully Representative of the Member
                Population

        For the reasons summarized above, the CMS-HCC payment model should not be used as
an audit tool without a significant adjustment to the confidence level. The flawed results
produced by this approach and by failure to apply the anticipated CMS adjustment factor (see
discussion in Section V.B) are further exacerbated by the flaws in the sampling and extrapolation
methodology used by the OIG in this audit.

        In order for the results of an audi t sample to be reliably extrapolated to the population,
the sample itself must be both random and representative of the population. 28 There are at least



28
  See Protestant Memorial Medical Center, Inc. v. Department ~(Public Aid, 295 Ill. App. 3d 249; 255­
256, 692 N .E.2d 861 (Ill. App. Ct. 1998) (A statistically valid sample must be composed of three criteria:
                                                                                            (continued...)


                                                     14
                                                                                                           Page 15 of 47




two ways that the sample should have been drawn to ensure representativeness. First, a larger
sample would have had a higher probability of drawing all of the HCCs that were present among
the Plan's membership during the relevant period. A sample size of 100 is simply too small.
(Under established CMS standards, CMS generally draws a sample of at least 200 members
when conducting a RADV audit.) The 100-member sample drawn by OIG was not fully
representative of the 18,821 Plan members who had a risk score based on at least one HCC.
Only 47 of the 69 HCCs that appear in this population are represented in the OIG audit sample.
As such, the OIG's extrapolation applies to 22 HCCs that appear in the Plan population, but for
whom no Plan members with these corresponding HCCs were audited by the OIG. Therefore,
the smalllOO-member audit sample used in thi s case is not an accurate representation of the Plan
members with a risk score based on at least one HCC. (See Exhibit 7.)

        Second, the sample could have been stratified according to HCC by dividing the
population into a subgroup for each HCC in the population and then drawing a random sample of
diagnosis codes from each subgroup. Specifically, the audit sample could have been stratified so
as to include at least one member for each of the 69 HCCs in the population to ensure that all of
the relevant traits in the population were represented. Stratification would have ensured that the
sample was more representative of the Plan membership with at least one HCC. Unlike OIG, it
is our understanding that CMS does stratify its RADV audit samples. The Jack of
representativeness of the audit sample further and significantly reduces the reliabibty of the
OIG's extrapolated overpayment determinations. (See Exhibit 7.)

        The inadequacy of the OIG's sampling methodology and the adverse and unfair impact of
extrapolation are demonstrated by the following example. Three (3) ofthc 100 members
sampled were assigned to the same Plan contracted provider (Iospiris). Inspiris is responsible for
the Plan's institutionalized m embers. Plan membership assigned to Inspiris in the OIG sample of


(continued)

randomness, efficiency, and representativeness. If the basic underlying se lection of a sample does not
meet these three criteria, then no matter how sound the statistical methods applied are, the result is useless
and invalid upon extrapolation.)




                                                      15
                                                                                                     Page 16 of 47




100 members was less than 1% (186/18,821), yet 3% of the 100 sampled members were assigned
to this provider. In addition, the three Inspiris members accounted for 19 of the 314 OIG­
sampled HCCs --over 6% of the HCCs sampled. Thus , members assigned to this provider were
over-represented in the audited sample. Moreover, these three audited members reflected 6
errors, accounting for 10% of the errors identified by OIG. The OIG extrapolated the HCC
discrepancies associated with this provider over the entire 18,821 Plan member population that
had at least one HCC. By post-stratifying the sample by Inspiris versus non-Inspiris members,
the sample estimates can be reweighted from the two groups according to their population
frequency while still providing a statistically reliable estimate. The effect of treating the Inspiris
members as a separate stratum reduces the alleged overpayment by approximately $900,000.

V. 	   THE OIG RADV AUDIT SHOULD BE DISCONTINUED UNTIL CMS
       HAS ACTED

       The OIG has conducted this audit, determined a payment error, extrapolated that payment
error to the entire Plan membership having at least one HCC, and recommended a contract-level
repayment amount, all without CMS having yet implemented the methodology that it will use for
Medicare Advantage organizations and on which Medicare Advantage organizations have not
had the opportunity to comment. For the reasons described below, the OIG's actions are
inappropriate and premature.

       A. 	    Extrapolation is Not Warranted in Routine RADV Audits

               1. 	    There is No Precedent for Extrapolation under Medicare Managed Care

       CMS and OIG audits of Medicare Advantage organizations (and predecessor Medicare
managed care contractors) have historically resulted in recommended repayments as to the
specific errors and members identified in the audit and have not been extrapolated to r equire
repayment on a contract-level basis. During the Plan's September 21, 2010 meeting with the
OIG, the OIG disagreed with this statement and sought to distinguish      il~   prior audits ofMedicare
managed care plans where member level refunds were recommended from the OIG's RADV
audit of the Plan. According to the OIG, prior OIG audits of institutionalized status payments to
Medicare health plans reviewed all institutionali zed status payments (as opposed to a sample)



                                                  16
                                                                                                    Page 17 of 47




made to the audited plan on behalfof members believed to satisfy the institutionalized status
criteria. As a result, member level findings were appropriate in those audits.

         However, the Plan's position - not the OIG's --is borne out by a review of prior OIG
audits, including the following: 29

             • 	 In OIG Report No. A-05-94-00053, the OIG reviewed a random sample of 100
                beneficiaries whom the audited plan had classified as institutionalized. The OIG
                determined that 15 of 100 beneficiaries did not meet applicable criteria for
                institutionalized status payments and that the plan was overpaid $93,252 for the
                 15 beneficiaries. "On the basis of the sample, [the OIG projected] that at least
                $861,615 of overpayments were made" to the plan. However, the OIG's
                recommendations were that the plan refund the member level overpayments of
                $93,252, and "review the balance of the institutionalized beneficiary universe to
                identify and refund additional overpayments, which [the OIG] estimate[s] to total
                at least $861,615."

             • 	 In OIG Report No. A-05-01 -00070, the OIG determined that the audited plan
                received overpayments totaling $11,089 for 13 beneficiaries out of"a statistical
                sample of 100 Medicare beneficiaries, reported as institutionalized" and, based
                on the OIG's sample results, the OIG estimated that the plan received Medicare
                overpayments of $98,689 for beneficiaries incorrectly reported as
                institutionalized. The OIG recommended that the plan refund the $11 ,089 and
                review the balance of the institutionalized universe (890 beneficiaries) to identifY
                and refund the additional overpayments, which the OlG had estimated to be
                $98,689.




29
     Other examples of OIG audit reports where member level adjustments were made include:
OIG Report Nos. A-09-01-00056 , A-03-00-00010, and A-03-98-00034.




                                                 17
                                                                                                Page 18 of 47




           • 	 In OIG Report No. A-06-06-00104, the OIG reviewed whether the encounter data
               submitted by the audited plan were valid and accurate. The OIG "statistically
               selected" 100 beneficiary enrollment months, and determined that the risk factors
               CMS assigned to 13 beneficiaries were based on inpatient stays for which
               providers incorrectly coded the principal diagnoses. For the 13 beneficiaries, the
               OIG determined that the plan had received overpayments for 6 beneficiaries and
               underpayments for 3 beneficiaries. Using the OIG's statistical software, the OIG
               estimated the amount of erroneous payments in the audit universe to be $50,000
               in overpayments. Despite identifying overpayments to the audited plan, the
               OIG's recommendations did not include repayment of any amount. Instead, the
               OIG recommended that the plan:

                   o 	 Strengthen internal controls to ensure that providers maintain medical
                      records;

                   o 	 Insert into provider contracts provisions that promote the accurate
                      recording of encounter data; and

                   o 	 Train providers to code diagnoses accurately.

       Thus, contrary to the OIG's recollection as expressed at the September 21, 2010 meeting,
OIG audit report precedent is to make member level adjustments only-- even when the OIG has
calculated an extrapolated overpayment. Furthermore, where an extrapolated overpayment has
been calculated by the OIG, the OIG has used the extrapolated amount as part of its
recommendation that the audited plan engage in its own review and refund additional
overpayments that the plan may subsequently identify. The Draft Report in this case goes
considerably and unjustifiably beyond existing OIG precedent and should be modified
accordingly.




                                                18
                                                                                                      Page 19 of 47




                 2.     Extrapolation Should be Limited to Sustained Errors

          In addition, precedent under the Medicare program for the use of extrapolation involves
situations where there is a sustained or high level of payment error.30 In a prior ruling,31 CMS
(then the Health Care Financing Administration or "HCFA") determined that HCFA and its
Medicare contractors may use statistical sampling to project overpayments to providers and
suppliers when claims are voluminous and reflect a pattern of erroneous billing or overutilization
and when a case-by-case review is not administratively feasible.

          In the context ofCMS-HCC payment model risk-adjusted capitation rather than fee-for­
service claim payments, the issue becomes whether the Plan has exhibited a sustained level or
pattern of erroneous or otherwise inappropriately excessive diagnosis code submissions. There
has been no suggestion of such a level or pattern in this audit. The Plan has simply had the
financial misfortune ofbeing randomly selected by the OIG for audit. Moreover, while it may
not be administratively feasible for the OIG to review the medical record documentation
underlying all ofthe Plan' s members with at least one HCC, a review of more than 100 records
is not only feasible, but required, particularly where the OIG is conducting RADV audits of only
a few Medicare Advantage organizations. In fact, in prior audits of Medicare managed care
plans, the OIG audited the entire universe of relevant members. These prior OIG audits
contradict the OIG's use of such a small audit sample of 100 Plan members with at 1east one




30
   See 42 U.S.C. § 1395ddd(f)(3) (A Medicare contractor may not use extrapolation to determine
overpayment amounts to be recovered by recoupment, offset, or otherwise unless the Secretary
detennines that- (A) there is a sustained or high level of payment error; or (B) documented educational
intervention has failed to correct the payment error.
31
     HCFA Ruling No. HCFAR-&6-1 (Feb. 20, 1986).




                                                   19
                                                                                                    Page 20 of 47




HCC to make a contract level repayment recommendation for a universe of approximately
18,82 1 members. 32

                  3.      Other Problems with Extrapolation

          According to th e CMS Medicare Program Integrity Manual,

              The size of the sample (i.e., the number ofsampling units) will have a direct
              bearing on the precision of the estimated overpayment, but it is not the only
              factor that influences precision. The standard error of the estimator also
              depends on (1) the underlying variation in the target population, (2) the
              particular sampling method that is employed (such as simple random,
              stratified, or cluster sampling), and (3) the particular form of the estimator that
              is used (e.g., simple expansion of the sample total by dividing by the selection
              rate, or more complicated methods such as ratio estimation). It is neither
              possible nor desirable to specify a minimum sample size that applies to all
              situations. 33

          During the September 21,2010 meeting, OIG representatives vigorously defended the
OIG audit sampling methodology, claiming that the methodology has been upheld by the courts
on a number of occasions. Since that meeting, the Plan has attempted to identify a single court
decision that has validated the OIG's audit sampling methodology. The Plan has yet to identify
any such decision.

          Further, in the relatively recent world ofCMS-HCC payment model ri sk-adjusted
capitation, it is equally unfair to extrapolate audit results based on ever-changing and
retroactively-applied rules regarding what documentation can be used to validate a ri sk-adjusted
payment. (How is a Medicare Advantage organization supposed to train a provider to bill using a
coding rule that has not yet been created?) Retroactive application of increasingly narrow rules




32
  See e.g., OIG Report No. A-09-00-00103 (OIG audited all380 members for whom the plan received
Medicaid special status payments); OIG Report No. A-07-02-00150 (OIG audited al1220 members for
whom the plan received enhanced institutionalized status payments); and OIG Report No. A-07-03-00151
(OIG audited all 772 members for whom the plan received enhanced institutionalized status payments).
33
     Cited in John v. Sebelius, 2010 U.S. Dist. LEXIS 107854, *9 (E.D. AK 2010) (emphasis added).




                                                    20
                                                                                                     Page 21 of 47




regarding what constitutes acceptable documentation in support of an HCC is fundamentally an
unfair and inequitable approach, as further described in Section VII.

       Extrapolation, if used , should be phased in over a period of time (i.e., the percentage of
the extrapolated payment adjustment increasing each year unti l 100% extrapolation is
implemented), with rules applicable to medical record review implemented on a prospective
basis only. The CMS-HCC payment model was phased in over a period of several years, with
I 00% risk adjustment commencing in 2007. It is unfair and inappropriate to seek contract-level
extrapolated payment adjustments for the first year that payments to Medicare Advantage
organizations were I 00% risk-adjusted.

       In sum, extrapolation without a legitimate underlying concern as to sustained levels or
patterns of diagnosis submission errors is unprecedented and inappropriate as to any Medicare
Advantage organization. The Plan is a case in point. It is currently the number-one CMS star­
rated plan in Maricopa County and has been a highly-r egarded Medicare managed care plan for
nearly 40 years. If the OIG publicly releases its unfounded recommendation that CMS recoup an
alleged "overpayment" of the magnitude stated in the Draft Report, it is quite an understatement
to say that the public perception ofthe Plan will be negatively impacted when the Plan's only
mistake was its immense misfortune of being randomly selected for this OIG RADV audit.

       B. 	    The OIG RADV Audit is Premature and OIG Should Await Further CMS
               Guidance on Adjustments Intended to Correct Significant Deficiencies in
               RADV Audit Methodology

       It is significant to note that to date, CMS has not issued any RADV audit findings that
extrapolate error rates on a contract-level basis, and has made only member-level adjustments in
RADV audits. One of the principal reasons for thi s is that CMS is working to remedy the
following concern.

       To achieve a fair and accurate result, any audit of Medicare Advantage risk-adjusted data
must take into account the circumstances of the underlying Medicare FFS data used to develop
the model. The Medicare Advantage risk-adjusted payment model was developed using
Medicare FFS claims data for the purpose of establishing "comparable" payments to Medicare
Advantage organizations. These payments are intended to represent an actuarial estimate of the


                                                21
                                                                                                         Page 22 of 47




risk present in Medicare Advantage organization plan membership relative to that of the
Medicare FFS population.

          The diagnosis data used by CMS to develop the risk scores for the HCC payment
methodology is from Medicare FFS claims, which the Plan understands has a significant error
rate. Medicare Advantage organizations cannot reasonably be expected to have a lower error
rate than Medicare FFS since the same physicians submit claims under both programs.
Extrapolated payment adjustments should be used, if ever, for Medicare Advantage
organizations that have particularly high rates ofunsupported diagnoses compared to
unsupported Medicare FFS diagnoses upon which the CMS-HCC risk score data are based. 34

          It is our understanding that CMS intends to address this concern and avoid penalizing
Medicare Advantage organizations for this error r ate. CMS is currently working on the
development of this FFS adjustment factor and perhaps other adjustments as well. In the
preamble to its April 15, 2010 final rule, CMS declared its intent to ensure th at the RADV
process is transparent to audited Medicare Advantage organizations and the public.35 CMS has
expressly recognized that it is necessary to "refine th e error rate calculation" to account for any
error rates inherent in Medicare FFS data that affect MA error rates. 36 Under the CMS approach
as the Plan understands it, Medicare Advantage organizations would be held accountable only
for their specific error rate, i.e., the audited error rate that exceeds the FFS error rate.

          CMS has statutory authori ty to administer the Medicare Advantage program in
accordance with rules that it promulgates. See 42 U.S.C. §§ 1302(a), 1395w-27(b) and
1395hh(a)(l). CMS rules are entitled to deference. See Fed. Express Cprp. v. Holowecki, 552
U .S. 389 (2008). Until a payment error calculation and extrapolation methodology is released by




34
  The need for a FFS adjustme nt factor could potentially be eliminated once CMS, consis tent with its
August 19, 2008 rulemaking, has Medicare Advantage member-specific utilization data that could be
used to recalibrate the CMS-HCC risk adjustment models.
35
     75 Fed. Reg. 19678 at 19746 and 19753.
36
     /d. at 19746 and 19749.




                                                   22
                                                                                                           Page 23 of 47




CMS and the public has an opportunity to comment on such methodology, it is inappropriate for
the OIG to proceed with recommending a contract-level adjustment using its current
methodology.

VI. 	      THE PLAN IS ENTITLED TO A SECOND INDEPENDENT AND QUALIFIED
           MRCREVIEW

           Even if one were to disregard the deficiencies in the OIG RADV audit methodology
described above, the OIG process is subject to additional challenges that the CMS process is not
The Plan believes that, if not discontinued for the reasons described above, the OIG audit process
should be pended until CMS has released further guidance on adjustments to its RADV audit
methodology and until there is a full, fair and independent review by a second, qualified MRC of
the Plan's position as to each of the 28 HCC discrepancies and the additional HCC
documentation and other information provided by the Plan. This independent MRC review
should further apply the correct and appropriate documentation and review standards, as
described below.37 Finally and consistent with the 2006 and 2007 Participant Guides and in order
to assure a clear understanding ofthe Plan Medical Director's clinical discussions and records
for each disputed HCC attached to this Response, the Plan specifically requests that a physician
be among the MRC reviewers "to assess whether any clinical factors may change the
outcome". 38

           A.      The Plan was Denied Access to the Original OIG MRC and is Entitled to 

                   Review of That MRC's Findings by a Second, Independent MRC 


                   1. 	    The Plan Was Not Told the Identity of or Permitted to Interact With the
                           MRC

          The OIG engaged an MRC for the purpose of determining whether the medical record
documentation provided by the Plan to the OIG supported the reported diagnoses and resulting



37
   Government Auditing Standards provide at§ 8.36 that, in preparing a final audit report, "the auditors
should modifY their report as neces sary if they find the comments valid and supported with sufficient,
appropriate evidence."
38
     2006 Participant Guide at p. 8-19; 2007 Participant Guide at p. 7-21.




                                                      23
                                                                                                       Page 24 of 47




HCC scores for the 100 sampled members. The OIG acknowledged to Plan staffthat the OIG
did not have the internal expertise to perform the review itself.39 While the Plan may not object
to the OIG's use of a contractor, the Plan does object to the "secrecy" surrounding the MRC.
Specifically, the OIG would not provide the Plan with the name of the MRC or the credentials of
the MRC's reviewers and, most significantly, the OIG would not allow the Plan to have any
discussions with the MRC reviewers during the course of the audit.

           The Plan does not understand why the OIG would not identify the MRC or allow MRC
and Plan staff to interact during the audit process. Without knowing who the MRC was, the Plan
was unable to evaluate whether the MRC's participation in this audit created any real or potential
conflict ofinterest.
                       4
                        ° Furthermore, interaction between Plan and MRC staff would have
facilitated the audit process, particularly as medical record chart review is oftentimes a subjective
process. In fact, for 24 of the HCCs invalidated by the reviewers Category 1 (Coding) and
Category 2 (Clinical), the Plan believes that the medical record documentation it submitted
complies with CMS requirements and lCD-9 Coding Guidelines and/or that the applicable
                                                                          41
medical record documentation clinically supports the reported HCC.             A resolution with respect
to these 24 HCCs could have been achieved before the Draft Report was issued, had di scussions
between Plan staff and the MRC reviewers been allowed. Such interaction could have also
compensated for the OIG audit staff's lack of experience in this area.




39
  Government auditing standards require that the audit staff possess adequate professional competence
for the tasks required. See Government Auditing Standards at§ 3.40. The audit staff should also possess
a general knowledge of the environment in which the audited entity operates and the subject matter under
review. !d. at§ 3.43 .
40
  Government Auditing Standards at§ 3.02 provide that "[iJn all matters relating to the audit work, the
audit organization and the individual auditor, whether government or public, must be free from personal,
external, and organizational impairments to independence, and must avoid the appearance of such
impairments of independence."
41
     See Section Vill; Exhibit 3.




                                                   24
                                                                                                 Page 25 of 47




               2. 	    The MRC Was Released by OIG Before the MRC Considered the Plan' s
                       Material Challenges to the MRC's Findings

       On October 30, 2009 and prior to the audit exit conference in November 2009, the OIG
provided the Plan with a "Part C Error Matrix" and Summary created by the MRC and requested
that the Plan be prepared to discuss the alleged HCC discrepancies during the exit conference.
Just prior to the November 2009 exit conference, the OIG further presented the Plan with a "Fact
Sheet" that summarized the MRC's findings, which included 59 HCC discrepancies. It was at
this point that the Plan was told that the extrapolated overpayment alleged by OIG exceeded
$23.6 million. In December 2009, the OIG provided the Plan with an additional HCC
discrepancy (for a total of60 as indicated in the Draft Report) and asked the Plan for its
response, which the Plan provided. It is the Plan's understanding that shortly thereafter, the OIG
released the MRC.

       The OIG next told the Plan that the Draft Report would likely be issued in February
2010. However, by April201 0, the Draft Report had still not been issued and the Plan was
hopeful that the delay was due to the OIG's efforts to engage a second MRC. On April20, 2010
and pursuant to the OIG's April 15, 2010 request, the Plan submitted a more detailed response to
the MRC's Error Matrix and Summary. Subsequent to the Plan's submission, the OIG informed
the Plan that none of the additional information provided by the Plan would be considered for
purposes of the Draft Report. Instead, on April 26, 2010, the OIG simply returned the same,
unchanged version of the Part C Error Matrix and Summary from October 30, 2009, which was
based exclusively on the original MRC's initial findings. Given the OIG's delay in issuing the
Draft Report, the OIG should have retained a second and independent MRC to consider the
Plan's April20, 2010 submission before issuing the Draft Report.

        The OIG's release of its MRC and the OIG' s failure to retain a second independent MRC
before the Plan submitted this Response to the Draft Report suggest that the Plan's responses to




                                                25
                                                                                                            Page 26 of 47




 the Draft Report's findings regarding specific HCCs may not be evaluated by a qualified 

                                                     42 

 reviewer before the final audit report is issued.

                  3. 	    The Plan is Entitled to an Independent MRC Review Before Any Final
                          OIG Report is Issued

         Principles of fundamental fairness dictate that the OIG should have identified the MRC
 and the Plan should have been allowed to review and discuss the MRC's preliminary findings
 with the MRC reviewers. This is particularly true given that the OIG released the MRC before it
 informed the Plan that the MRC's HCC discrepancy findings, when extrapolated, would result in
 a staggering recommended repayment amount in excess of$23.6 million. Having missed that
 opportunity, the OIG should have retained the services of a second, independent MRC to review
 the Plan's revised April20, 2010 Error Matrix and Summary submission, which the OIG
 specifically requested that the Plan provide, before it released its Draft Report in June 2010
 (which the Plan had understandably further researched and supplemented after being told the
 amount of the recommended adjustment the OIG was going to make).

         Having missed that opportunity as well, the OIG is compelled at this point in the process
 to retain a second, independent MRC to review the Plan's submissions before the OIG issues any
 final report. 43 This review should include the review of the findings ofthe original MRC, the
 information submitted by the Plan to OJG on April 20, 2CHO pursuant to the OIG's request, the
 additional HCCs that the Plan identified in the audited sample that OIG represented it would
 consider, but did not, and the HCC information contained in this Response.




 42
    At the September 21, 2010 meeting, the OIG stated its intent to retain an MRC to review the Plan 's
  response. However, as of the date of the Plan's Response, the OIG has yet to retain the MRC.
  Furthermore, the OIG has declined the Plan's requ est for assurances that the second MRC will be a
  separate firm independent of the first MRC . The OIG made clear at the meeting that it does not intend to
. reveal the identity of any second MRC or its coding staff and stated that it is unlikely the OIG will permit
  the Plan to interact with the second MRC. The OIG did allow the Plan an additional sixty (60) days
  beyond the original September 27, 2009 due date to submit this Response including further information
  for MRC review and OIG ' s consideration.
 43
  The Plan welcomes the additional MRC review described by the OIG at the September 21, 20 I0 

 meeting, which the Plan hopes will be a comprehensive, independent and interactive review . 





                                                      26
                                                                                                            Page 27 of 47




            Government Auditing Standards provide at§ 8.36 that in preparing a final audit report,
"the auditors should modify their report as necessary if they find the comments valid and
supported with sufficient, appropriate evidence." OIG by its own admission is not qualified to
evaluate the validity or sufficiency of the HCC arguments presented by the Plan without a
second independent and qualified MRC review. Further, under HCFAR-86-1, the Plan must be
given a full opportunity to demonstrate that the overpayment determination is wrong. If
individual cases within the sample are determined to be erroneous, the amount of projected
overpayment must be modified. This full opportunity should include the opportunity for the Plan
to present its arguments regarding the HCCs chall enged and the additional HCCs directly to a
second independent and qualified MRC, and the opportunity to respond to any questions raised
by the MRC or its physician.

            In sum, the law is clear that the use of sampling and extrapolation can be arbitrary and
capricious if the audited party is not given an opportunity to rebut the initial determination of
overpayment. 44 In this audit, the OIG has the responsibility to ensure that it is on firm ground
with respect to its evaluation of and findings regarding the clinical support underlying the HCCs
that serve as the basis for the extrapolated adj ustment amount. As any OIG final report
ultimately issued may become a public document, the Plan believes the OIG must take all
reasonable steps to assure its report is accurate and not to issue a report that misrepresents the
Plan's compliance with CMS requirements and contains an unsupported and erroneous
recommendation that the Plan owes the federal government a refund of tens ofmillions of
do llars.

            B.     A Second MRC Review is Consistent with Rights Provided by CMS

            As the OIG RADV audit process does not allow the Plan to formally appeal adverse audit
findings before a final audit report is issued and becomes an inaccurate public document, the




44
   Use of sampling and extrapolation can be arbitrary and capricious if the audited party is not given an
opportunity to rebut the initial determination of overpayment. See Illinois Physicians Union v. Miller,
675 F.2d 151 (7th Cir. 1982).




                                                     27
                                                                                                        Page 28 of 47




OIG should treat this Response consistently with the CMS RADV audit process as set forth in
the 2006 and 2007 Participant Guides, and allow for two independent levels of review and the
submission of additional documentation as discussed in Section Vll.A.

           When conducting RADV audits, CMS contracts with two independent review contractors
to conduct medical record revicws. 45 The Initial Validation Contractor ("IVC") facilitates the
process and conducts the initial review of medical records. All discrepancies46 identified by the
IVC are subject to a second, independent medical record review by the Second Validation
Contractor ("SVC") to confirm the discrepancy. The SVC receives any discrepant medical
records from the IVC, confirms risk adjustment discrepancies that are identified by the IVC, and
implements an appeals process.4 7 The fVC and SVC are blind to each other' s findings. 48 CMS
shares any plan level findings with the selected Med.icare Advantage organization, which
findings may include a response rate, data discrepancy rates, and risk adjustment discrepancy
error rates. 49

           The CMS process for allowing two independent levels of review mitigates discrepancies
due to inter-rater reliability. That is, for an y particular coder, there will be errors in the
subjective interpretations ofthe individual claims. In practice, different coders may reach
different conclusions with regard to the same claim. 50 As such, a proper sampling design would
dictate the inclusion of a sufficient number of claims for each auditor (so that possible errors in




45
     See 2006 Participant Guide at p. 8-1; 2007 Participant Guide at p. 7-1 .
46
  Data discrepancies can include coding discrepancies, invalid medical records, or missing information. 

See 2006 Participant Guide at p. 8-17; 2007 Participant Guide at p. 7- 19. 

47
     2006 Participant Guide at p. 8-5; 2007 Participant Guide at p. 7-6. 

48
  See "Risk Adjustment Data Validation (RADV) and Prescription Drug Event Data Validation Program 

Overview" (Tom Hutchinson Slide Presentation, accessed at 

http://www .iceforhealth.org/oodcast/201 00113 02 ICEConf2009 lERiskAdjData Val.llilf ). 

49
     2006 Participant Guide at p. 8-18; 2007 Participant Guide at p. 7-20. 

50
  In fact, the OIG has acknowledged that "experts can disagree as to how a claim should be 

coded." OIG Report No. A-06-06-001 04 at p. 6. 





                                                       28
                                                                                                      Page 29 of 47




the subjective interpretation of claims reviewed by that auditor are averaged out) and the use of
multiple coders (so that the normal expected variation among auditors is averaged out).

           However, the OIG has not yet provided the Plan with these procedural protections. As
the Draft Report indicates at footnote 4, the OIG did not utilize two independent review
contractors. Rather, the OIG utilized a single MRC that provided unsupported HCC
determinations made by the MRC staff during the first medical review to other staff for a
second review. The associated relationship between the OIG reviewers is an additional basis for
challenging the accuracy of the OIG's findings and recommendations. The second MRC review
should include two independent levels of review consistent with the CMS process.

Vll. 	 OlG AND THE SECOND MRC SHOULD APPLY DOCUMENTATION AND
       OTHER REQUIREMENTS IN EFFECT FOR THE AUDITED PLAN YEAR TO
       ADVANCE THE ACCURACY OF RISK-ADJUSTED PAYMENTS

           A. 	    The Standards in Effect For the Plan Year Audited

           In order to mitigate distortion of any extrapolated amount and to assure the fairness of its
process, the OIG should instruct its second MRC to apply the standards for review that were in
effect at the time the services were rendered. The standards in effect for the 2006 dates of
service at issue included principally the CMS 2006 Participant Guide, which was in effect until
replaced in December 2007 with the CMS 2007 Participant Guide, as well as CMS guidance
adopted for the 2007 RADV pilot project. 51

           Both the 2006 and 2007 CMS Participant Guides provide for an appeal process that
allows Medicare Advantage organizations to "offer a different interpretation of the ICD-9 code
assignment based on ICD-9 Coding Clinic Guidelines."52 In addition, Medicare Advantage
organizations can "provide additional medical record documentation to support their
appeal. Thus, each appeal must include, at a minimum: - A clearly documented reason for


51
   At the September 21, 2010 meeting, the OIG informed the Plan that the OIG would apply the
standards in effect for the 2006 dates of service in reviewing the Plan's Response.
52
     2006 Participant Guide at p. 8-19; 2007 Participant Guide at p. 7-21.




                                                      29
                                                                                                         Page 30 of 47




disagreement with the medical review finding; and/or- Additional medical record
documentation to support the reason for appeal."53 Under the 2006 and 2007 Participant
Guides, Medicare Advantage organizations are not limited to di sputing whether the one best
medical record does or does not validate the HCC.

          Based on this review standard, the second MRC is not limited to a review of only the
"one best medical record" or limited by other more recent unfairly limiting and retroactively­
applied documentation requirements. The second MRC should appropriately consider the Plan' s
concerns in the breadth of documentation deemed acceptable.

          There are legitimate concerns regarding current risk adjustment data submission and
validation processes. The risk adjustment payment methodology and risk adjustment audit
system must each accurately capture the operational aspects and assumptions that make up CMS
payments to M edicare Advantage organizations. Otherwise, Medicare Advantage organi zations
will be unfairly and inappropriately penalized for e.r rors that are outside of their control. For the
same reason, the OIG and the second MRC should allow physician attestations to address any
discrepancies solely due to missing or illegible physician signatures or credentials in the medical
record documentation.54 Included with this Response, are four physician attestations that the
Plan obtained on the CMS-required form.

           Set forth below is a discussion of why the OJG should instruct its second MRC to follow
the above documentation guidance as well as accept physician attestation s that CMS has allowed
Medicare Advantage organizations to use since the 2007 RADV pilot project. 55 Had the OlG
conducted an independent review that sought valid clinical support for HCCs in light of the goals
of risk-adjusted payments, more HCCs would have been appropriately validated. We request




53
     Jd. (emphasis added).
54
  The Plan understands from its September 21,2010 meeting with the OIG that the OIG is considering
accepting physician attestations to address missing or illegible physician signatures or credentials.
55
   CMS subsequently adopted the use of a physician attestation in its Aprill5, 2010 final rule. See 75
Fed. Reg. at 19807 (promulgated at 42 C.F.R. § 422.3 ll (c)).




                                                   30
                                                                                                    Page 31 of 47




that the OIG consider the Plan's concerns and recommendations in preparing its final audi t report
and in making any recommendations to CMS regarding the risk adjustment data submission and
validation processes.

           B. 	      Current Acceptable Sources of Medical Records Are Too Limited And
                     Overly Reliant on Physician Coding Accuracy

           CMS' limitations on the sources of acceptable medical records that a Medicare
Advantage organization may submit for risk adjustment purposes are too restrictive and ignore
other valid sources that would support a diagnosis and validate an HCC or are also valid
predictors of members ' future health care costs. The current restrictions are in direct conflict
with CMS' stated goals of improving payment accuracy while minimizing administrative
burdens on Medicare Advantage organizations.

           If the government wants to ensure accurate HCC s are assigned to Medicare Advantage
members, then they should not unduly restrict the documentation that can be submitted to verify
the diagnosi s coding. This is particularly true given that the CMS-HCC model is d ependent
upon the accurate and complete diagnosis coding and documentation practices of physicians.
CMS' own guidance recognizes the fact that physicians are incentivized to bill by procedure
code not diagnosis code because they are paid by procedure:

                  [The CMS-HCC] module emphasizes physician documentation and reporting
                  of diagnosis codes. Historically, physician reimbursement in fee-for-service
                  is primaril y based on procedures or services rather than diagnoses, and
                  physicians are very familiar with documentation guidelines for procedures and
                  services. Physicians gcneraUy are not as familiar with diagnosis codes
                  and their associated documentation guidelines as they are with procedure
                  coding rules. The [CMS-HCC] models depend upon accurate diagnosis
                  coding, which means that physicians must fuUy understand and comply
                  with documentation and coding guidelines for reporting diagnoses 5 6

          The risk adjustment process is flawed because Medicare Advantage organizations do not
and cannot control the underlying medical documentation. While the Plan trains and educates



56
     2006 Participant Guide at p. 5-2 (emphasis added); 2007 Participant Guide at p. 6-2.




                                                      31
                                                                                                    Page 32 of 47




physicians on proper coding and documentation, the fact remains that it is the ph ysicians who
control the underlying medical documentation. 57 Since only about one quarter of all Medicare
beneficiaries are enrolled in Medicare Advantage plans, enforcing the coding and documentation
requirements only on Medicare Advantage organizations will not likely change the coding and
documentation practices of physicians. Furthermore, while medical record reviews and audits by
the Plan help to identify coding errors and deficiencies in documentation practices, it is
unrealistic and impractical for the governrnent to expect Medicare Advantage organizations to
review medical records for every encounter submitted. It is also contrary to one of the stated
goals of risk adjustment- to minimize the administrative burdens on Medicare Advantage
organizations. The Plan currently processes approximately one million medical claims I
encounters per year (excluding pharmacy).

           To address the over-reliance on physician coding and documentation practices, the
RADV process should allow alternative sources of information to confirm that a member has a
particular condition and to validate an HCC. HCCs identify chronic health care conditions that
generally are not curable, such as diabetes, congenital heart disease, chronic kidney disease and
peripheral vascular disease. These chronic conditions are always present for affected patients,
but will not necessarily be diagnosed or even noted on every medical record. Despite this, the
RADV process precludes submission of anything but a single medical record, even when the
balance of the member's medical record or other records would validate the HCC. CMS' own
guidance recognizes the usefulness of"altemative data sources," such as diagnostic data and
pharmacy records, in validating diagnoses.58 The OIG should take the additional step to accept
alternative data sources for risk adjustment purposes. 59




51
     See Section IX for a discussion of the Plan's training, education and audit programs.
58
     See 2006 Participant Guide at p. 3-10; 2007 Participant Guide at p. 3-11 .
59
  The following are examples of HCCs that are fully supported by alternative data sources: H0354­
037/HCC 55; H0354c040/HCC 79; H0354-045/HCC 79; H0354-047/HCC 10; H0354-090/HCC 108; and
H0354-097/HCC 92. See Exhibit 3.




                                                       32
                                                                                                   Page 33 of 47




           Further complicating the data submission process are changing CMS requirements
regarding acceptable records. These changing requirements make it difficult for Medicare
Advantage organizations to develop and implement policies and procedures as well as provider
training. One example of changing CMS requirements is diagnostic radiology. Diagnostic
radiology was an acceptable physician specialty for dates ofservice occurring in 2003 through
2005. However, CMS eliminated diagnostic radiology as an acceptab le risk adjustment
physician specialty beginning with 2006 dates ofservices. Two of the HCC discrepancies in the
Draft Report are supported by radiology reports.60

           C. 	    The One Best Medical Record Rule Is Inconsistent with the Medical
                   Documentation Practices of Providers

           The Plan also disagrees with the one best medical record requ irement for risk adjustment
validation purposes. Multiple records are often needed to verify the accuracy of the H CCs of
Medicare members .61 This may be a reason why CMS allowed additional medical record
documentation to be submitted for risk adjustment validation purposes under the 2006 and 2007
Participant Guides. Furthermore, there may not be a single medical record that verifies every
HCC. For example, the records of several specialists, including but not limited to, an
ophthalmologist or an optometrist, may be needed to validate an HCC such as a diagnosis of
diabetes with eye complications. Moreover, as CMS has acknowledged, pharmacy records and
prescription drug data can verify lJlany conditions such as congestive heart failure and other
chronic conditions. 62 Hospital records may also shed light on a member's condition whenever
the medical record itself is not sufficiently clear.63

           The one best medical record approach is flawed because it leads to false negatives.
Medicare members who have valid HCC s may not need to see a physician during the data




60
     See H0354-033/HCC 105 and H0354-077/HCC 108 in Exhibit 3.
61
     See H0354 -094/ HCC 159 in Exhibit 3.
62
     See 2006 Participant Guide at p . 3-10 ; 2007 Participant Guide at p. 3-11.
63
     See H0354-040/HCC 79 in Exhibit 3.




                                                        33
                                                                                                    Page 34 of 47




collection period, while others may only see a physician during the data collection period for
something that is not specifically related to the HCC diagnosis. Under the one best medical
record requirement, there would be no acceptable medical record support for these members'
HCCs. 64

          The purpose of medical documentation is to document the patient's condition and
treatment as necessary for clinical purposes. Under standard documentation practices, there is no
requirement that a patient's underlying diagnosis be "re-documented" in every record every year.
In fact, in the case of chronic conditions, the diagnos is will often not be noted each and every
year following the initial diagnosis. Whether such chronic conditions are recorded depends on
the care sought and the treatment rendered during the relevant encounter. The fact that the
condition was not re-documented does not mean that the condition was not taken into account
during the encounter. Moreover, the failure to re-document an underlying medical condition
does not mean that the condition has "gone away." However, under CMS requirements,
Medicare Advantage organizations are precluded from submitting a record from a prior or
subsequent year containing the relevant diagnosis to substantiate the HCC, or a sworn statement
from the physician that the member had the relevant condition during the data collection period.
This is an unreasonable and unwarranted limitation. Furthermore, this limitation is contrary to
the goal of determining whether the individual actually had the condition identified by the HCC
and ensuring that payments to Medicare Advantage organizations accurately reflect their
members' health status. 65




64
   The OIG invalidated H0354-068fHCC 80 as unsupported. This member had congestive heart failure
("CHF" ) that was appropriately documented in medical records in 2005 and 2008, but not in 2006.
Obviously, the member had CHF in 2006. Neverthel ess, the Draft Report invalidated the HCC.
65
     See 42 U.S.C. §§ 1395w-23(a)(l)(C) and (3).




                                                   34
                                                                                                     Page 35 of 47




         D. 	     Additional HCCs for the Audited Members and Resulting CMS
                  Underpayments to the Plan Must Be Included in the Audit's Findings and
                  Recommendations

         As previously referred to in Section Ill, the OIG has retracted its representation on the
Entrance Conference Agenda that underpayments to the Plan would be taken into account as part
of the audit. Specifically, the OIG informed the Plan that "[d]iagnoses that were not included on
the original submissions to CMS that were identified as a result of subsequent medical review
are outside the scope of our review." The OIG's statement directly contradicts the explicit
representations made to the Plan during the audit that the OIG will "consider underpayments in
[its] results."

         Separate from the explicit representation the OIG made that it would consider
underpayments, underpayments clearly are within the scope of the audit as set forth on the same
Entrance Conference Agenda: "We will validate the risk scores for samples of Medicare Part C
beneficiaries who were enrolled under CIGNA Healthcare of Arizona, Inc's. (CIGNA) contract
(H0354) during calendar year 2006." The "Methodology" set forth on the agenda provided that
that the OIG would "calculate the total amount of errors in [its] sample and project those results
to the population" as well as "also consider underpayments in [its] results ." A risk score can be
erroneous because it is too high or low. Both types of errors are within the scope of the OIG
audit.

         The OIG's refusal to consid er additional HCCs is particularly objectionable given the
extrapolation of the OIG's findings with respect to the sampled members to the entire uruverse of
Plan members with at least one HCC. The fact that the OIG could arrive at a recommended
refund in excess of$23 .6 million based on HCC discrepancies for 43 members and refuse to
consider potential offsets for those members is arbitrary and capricious.

         Other OIG audits ofMedicare managed care plans hav e taken underpayments into
account in their findings. For example, the audit objectives of OIG Report No. A-06-06-00 I 04
"were to determine whether the encounter data CMS used as the basis for the 2003 monthl y
payments made on behalfofbeneficiaries enrolled in [the audited plan] were valid and accurate."
Specifically, the OIG determined whether:



                                                  35
                                                                                                     Page 36 of 47




               • 	 The encounter data met the definition of"valid encounter data" that the OIG
                   devel oped from CM S guidance;

               • 	 CMS used the correct diagnoses when assigning beneficiari es' risk factors; and

               • 	 Medical record s supported the encounter d ata.

The audit objectives of OIG Report No. A-06-06-001 04 are nearly identical to those of the OIG's
audit of the Plan. However , in the previous audit, the "OIG determined the effect of the
discrepancies between medical records and coded diagnoses on beneficiaries' risk factors and
calculated overpaym ents and underpayments. Why the OIG would not fo llow the same
approach in the Plan's audit is inexplicable.

           Furthermore, the OIG's refusal to consider underpayments among the audited sample is
contrary to the purposes of risk adjustment generally and ofRADV audits specifically. The
OIG's refusal is also contrary to CMS risk adjustment validation procedures. Both the 2006 and
2007 Participant Guides provide that " the purpose ofrisk adjustment data validation is to ensure
risk adjusted payment integrity and accuracy ... A payment adjustment may increase or
decrease the risk adjusted payment. ..."66 For example, both the 2 006 and 2007 Participant
Guides instruct Medicare Advantage organizations that CMS may find that a record submitted by
the organization pursuant to data validation could contain "clinical information that result in risk
adjustment ICD-9 codes that were not previously submitted to CMS."67

           Thus, the OIG should instruct the second MRC to review the Plan d ocumentation for
u nreported HCCs and corresponding underp ayments to the Plan.




66
     2006 Participant Guide at pp. 8-18 and 19; 2007 Participant Guide at 7-20 (emphasis added).
67
     2006 Participant Guide at p. 8-10; 2007 Participant Guide at p. 7-1 1.




                                                       36
                                                                                                           Page 37 of 47




VIII. THE DRAFT REPORT CONTAINS ERRONEOUS DISCREPANCY FINDINGS

                                                                                       68
          Set forth in Exhibit 3 are the HCC discrepancies that the Plan disputes.          The Plan has
categorized the disputed HCCs as follows:


      • 	 Category 1 (7 HCCs): The documentation provided by the Plan meets the coding 

          guidelines. 



      • 	 Category 2 (17 HCCs): The documentation provided by the Plan does not meet coding
          guidelines but the clinical assessment supports the appropriateness of the diagnosis .


      • 	 Category 3 (4 HCCs): A physician attestation was provided to resolve the discrepancy.

In addition, the Plan has identified nine (9) HCCs applicable to the sampled members that should
have been captured for the 2006 reporting period but were not, and were not identified by the
OIG in its findings. (See Category 4.) With respect to these nine HCCs, the Plan has obtained
signed and credentialed documentation from the treating physician that accurately reflects the
patient's diagnosis under the physician's assessment. See Exhibit 3.


IX.       THE PLAN'S POLICIES AND PROCEDURES
          The second and final recommendation in the Draft Report is that the Plan "improve its
current policies and procedures to ensure compliance with the requirements of the Participant
Guide."

          The Plan already provided a great deal of information to the OIG in September 2009 in
response to the OIG's eleven (11) "Contract H0354 Risk Adjustment Process Questions." A
copy of the Plan's responses to those questions (without the supporting materials) is attached as
Exhibit 10. Included in the documentation produced at that time were copies of all Plan policies
"relevant to obtaining, processing and submitting" risk adjustment data for the audit period at
issue, and the Plan' s then-current quality assurance policies and procedures relating to the risk



68
     Supporting documentation is also being provided separate from the narratives included in Exhibit 3.




                                                      37
                                                                                                 Page 38 of 47




 adjustment process, including infonnation, instructions and training given by the Plan to its
· providers.

          In addition to these previously-provided materials, the Plan has summarized below
 various process improvements, education and audit programs currently used by the Plan in its
 ongoing effort to assure that provider documentation and coding fully support the ICD-9 codes
 submitted by the Plan to CMS for risk adjustment. Specifically, the Plan, through its multi­
 specialty medical group practice (Cigna Medical Group or "CMG") has implemented the
 following programs to assure appropriate documentation, coding and reporting ofHCC diagnosis
 codes:

 Process Improvement Programs

     •    Physician Visit Aids
     •    Electronic Health Record Implementation
     •    Plan Member Outreach
     •    Coder-Shadowed Physician Visits
     •    Review for Diagnosis Codi ng Accuracy Prior to Submission
     •    Review of Diagnosis Coding Accuracy Post Submission

 Physician Education Programs

     •    Mandatory Annual Documentation and Coding Training
     •    Periodic Physician Training
     •    Monthly Coding Newsletters
     •    Intense Audio Coding Training

 Audit Programs
     •    Medical Record Audits for Expiring Diagnoses
     •    Medical Record Audits Targeting Diagnosis Errors
     •    Annual Reverse (Retroactive) Audits
     •    Annual Back-End Audits
     •    Metrics and Perfonnance Audits

The foregoing process improvement, physician education and audit programs are described 

below. · 





                                                 38
                                                                                                  Page 39 of 47




       A.      Process Improvement Programs

        L       Physician Visit Aids (referred to internally as the "Purple Paper" process). A
Visit Aid (printed on purple paper for ease of identification) has been developed for physician
use that is generated when a Plan member presents for his/her appointment at a CMG medical
office. This aid identifies the member's current and prior year captured medical condition(s) and
codes and is used by the phys ician to determine the completeness and accuracy of those
conditions/codes. Also incorporated into the visit aid are "suspected" or potential diagnosis
codes that may have been missed , which are identified by a data analysis of the Plan member's
durable medical equipment, laboratory and prescription drug utilization. This listing of possible
additional codes prompts the physician to assess the appropriateness of coding for these
conditions as well. For example, if a Plan member is on home oxygen, the diagnosis of Chronic
Respiratory Failure is put on the Visit Aid for the physician to assess and confirm during an
examination. The Visit Aid tool has led to improved medical outcomes for Plan members by
proactively identifying disease conditions requiring physician follow-up during a scheduled
office visit. See Exhibit I O.A.l.

       2.      Electronic Health Record ("EHR") Implementation. CMG has implemented an
EHR which has functionality built in to identify HCC diagnosis codes for provider code choice.
The Visit Aid is being into the EHR to increase physicians' ability to assess expiring and
suspected diagnoses during the office visit with Plan members. Various triggers and alerts have
been placed in the EHR that require physicians to assess a diagnosis before they can move to the
next screen in a member' s medical record. See Exhibit 1O.A.2.

       3.      Plan Member Outreach. Plan members who have not received m edical services in
the current calendar year are identified monthly. Members are contacted and an annual physical
examination appointment with their primary care physician is scheduled. This allows the
physician to assess for expiring codes, as well as identify new codes based on use of the Visit
A id d escribed above. Alerts are placed on the Visit Aid. An example ofsuch an alert is: "the
patient had an acute MI [myocardial infarction] in the prior year, document and code for o ld
MI." In addition, all newly-enrolled Plan members are contacted within the first month of




                                                39
                                                                                                   Page 40 of 47




enrollment to schedule an initial primary care physician ("PCP") assessment and conduct a
thorough review of the patient's history and medical needs.

        4.     Coder-Shadowed Physician Visits. Under this program, coders "shadow" PCPs by
using the Visit Aid to create notes that are given to PCPs prior to their annual physical
examinations of Plan members. All member annual exams are included in the scope of this
project. Coders assist PCPs in documenting and coding patient encounters accurately. To
prepare for the actual visit, coders review patient clinical history and supply the PCPs with
diagnoses data and information on documentation appropriateness for all currently-existing
chronic conditions identified from the patient's clinical history. See Exhibit 10.A.4.

        5.     Review for Diagnosis Coding Accuracy Prior to CMS Submission. Before the
Plan submits ICD-9 codes to CMS for risk adjustment, senior clinicians and certified
professional coders review medical record documentation underlying claims I encounter data to
assure the coding is accurate. Currently, 100% of all CMG adult medicine provider records and
claims /encounter data are reviewed before the Plan submits ICD-9 codes to CMS. A two-step
approach to this ICD-9 coding review is used. First, a coder validates the physician's medical
record documentation. Any code found to be Jacking documented support undergoes a second
review by a senior nurse auditor. If the error is confirmed, the code is deleted from the CMS
submission.

       B.      Physician Education Programs

       In order to further improve HCC diagnosis capture processes and ensure that the entire
CMG organization is aware of the importance of appropriate diagnosis coding, a comprehensive
physician education program has been developed that includes the following components:

       1.      Mandatory Annual Documentation and Coding Training. This training is
conducted annually to communicate code changes, documentation requirements, deleted codes,
and any new coding policies that have been created or changed in the previous year. All CMG
physicians are required to complete the training at least annually. These formal coding training
sessions provide education regarding guidelines for documentation and coding with real-time
examples. At the end of all sessions, a test is given to the physicians to assess their


                                                 40
                                                                                                     Page 41 of 47




understanding of the material and feedback is given to each physician. Physicians receive
follow-up one-on-one supplemental training sessions with a coder when necessary. See Exhibit
IO.B.l.

          2.    Periodic Physician Training. In addition to the mandatory annual training, the
coding team presents regular coding topics at monthly PCP meetings, quarterly specialty care
meetings, and medical executive and medical center leadership team meetings. Various metrics
are shared at these meetings, including diagnosis capture rate statistics, potential expiring code
information and guidance on frequent coding error. Numerous specialty-specific education
programs have also been developed. The programs provide not only a basic understanding of the
Medicare Advantage payment methodology and CMS requirements, but also specific working
examples, tailored to the area of expertise of each physician team.

          3.   Ph~sician   Education Subgroup. A physician education subgroup has developed
training for physician back-office nursing staff to assure that all clinical resources are focused on
the accurate and efficient capture of ICD-9 diagnosis codes in real-time. During this process,
educational opportunities for coders, providers, and back office staff are identified. Training
programs are designed based on real-life documentation and coding errors and focuses on ways
to improve physician clinical documentation and encourage the review of all pertinent
information, including applicable lab results, radiology reports, and other related documentation
that would assist in the patient assessment for the final documented medical record note.
Physicians and staff are constantly reminded that medical record documentation must indicate
that the diagnoses are being Monitored, Evaluated, Assessed/Addressed, or Treated ("MEAT").
See Exhibit 10.B.3.

          4.   Monthly Coding Newsletters. Monthly newsletters are sent to physicians and
emphasize the need for accuracy in documentation and coding and provide examples of ways to
improve clinical documentation using the MEAT format. The Plan publishes Monthly Coding
Newsletters that dedicate an entire section on accurate HCC documentation and coding with
examples for physician use. See Exhibit I O.B.4.

          5.   Intense Audio Coding Training. Experienced HCC coders provide real-time and
recorded training with emphasis on correct documentation and coding. This training is


                                                 41
                                                                                                    Page 42 of 47




conducted for physicians and their nursing staff, and for all new physician hires. See Exhibit
10.8.5.

          C.   Audit Programs

          1.   Medical Record Audits for Expiring Diagnoses. The focus of chart reviews for
process audits is on "expiring" ICD-9 codes (meaning the underlying diagnosis is becoming a
historic rather than current diagnosis). CMG has a team of certified professional coders who
conduct retrospective chart audits on patients with expiring codes to determine if physician
documentation continues to support reporting the diagnosis to CMS. These individuals are able
to capitalize on their knowledge ofiCD-9 codes and appropriate physician documentation and
arc specifically trained to assure that codes are appropriately reported. The coders review
thousands ofPlan member medical charts to determine if all documented codes have been
accurately captured and to assure that only codes supported by appropriate documentation are
reported to CMS. Recaptured codes and inappropriately-reported codes are submitted to CMS
for retroactive payment adjustment. Ongoing audits of charts, physician documentation and
coding performance are required to ensure the accuracy and completeness of coding efforts.

          2.    Medical Record Audits Targeting Diagnosis Errors. These audits are perfonned
up to three times a year by senior CMG clinicians, certified professional coders, and nurses who
are certified professional coders. The purpose of the audits is to determine the validity of the
codes submitted and to identify opportunities fo r provider education on documentation and
diagnosis coding. For each audit, a sample of I00 patient visit records is pulled which contain
certain frequently-used ICD-9 codes shown to have a higher diagnosis coding error rate, based
on prior reviews. Logic-based system searches are conducted to identify members with the ICD­
9 codes to be audited. As an example of this type of review, one audit focused on coding
diabetes in connection with foot care services (a type of service not uncommon for diabetic
patients). The audit identified that patient appointment schedulers were giving all physicians
with upcoming appointments for foot care services information on how to appropriately code for
diagnosis of diabetes, which resulted in higher incidence of incorrect coding for that diagnosis.
As a result of that audit, the source of the coding error was identified, the claim s were corrected,




                                                  42
                                                                                                  Page 43 of 47




and CMS was informed of the incorrect diagnosis codes. Other diagnoses given priority for audit
have included:

       Chronic Kidney Disease 

       Old Myocardial Infarction 

       Chronic Obstructive Pulmonary Disorder 

       Chronic Respiratory Failure 

       Cancers 


       3.        Annual Reverse (Retroactive) Audits. These audits are conducted by the Plan to
assess the accuracy of ICD-9 codes previously submitted to CMS. The audits are designed to
identify coding errors that have led or could lead to CMS overpayments. The reverse audit
process focuses on those ICD-9 codes that prior review has shown are most frequently billed in
error. After a thorough review of the accuracy of documentation and coding, any ICD-9 codes
submitted to CMS in error are reported to CMS for payment adjustment. See Exhibit I O.C.3.

       4.        Annual Back-End Audits. These audits are conducted by the Plan to identify
documentation supporting codes previously missed and not submitted by the Plan to CMS for
risk adj ustment purposes. Logic-based system searches of claims data are conducted to identify
those members with diagnosis codes submitted in the previous year, but not the current year.
This information is used to conduct a review of missed diagnosis codes that should have been
submitted for risk adjustment for that time period. Information identified showing ICD-9 codes
were not previously submitted to CMS for risk adjustment is sent to CMS as a resubmission.

       5.        Metrics and Performance Audits. A multi-disciplinary team (HCC Diagnosis
Tean1) meets bi-monthly to review performance metrics and develop action plans to impro ve
HCC documentation and diagnosis capture.

       Based on the Plan's implementation of all of the foregoing process improvement,
physician educational and audit programs, the Plan does not concur with the Draft Report' s
second recommendation and requests that the recommendation not be included in any final audit
report issued by the OIG.




                                                43
                                                                                                    Page 44 of 47




X.      CONCLUSION

        The Plan respectfully disagrees with the Draft Report's findings and recommendations
and requests that the OIG discontinue its RADV audit. At a minimum, the Plan requests that the
OIG postpone the audit process pending further guidance from CMS and a review performed by
a second, independent MRC.

        The statistically invalid methodology used by the OIG to arrive at its recommendation
that the Plan repay over $23.6 million in alleged overpayments for contract year 2007 is
erroneous, unwarranted and undermines the princ ipal objective of the CMS-HCC payment
model , which is to compensate Medicare Advantage organizations more accurately for the higher
coverage needs of chronically ill Medicare beneficiaries. The inaccuracy of this methodology is
perhaps most clearly demonstrated by the fact that, in contract year 2007, the Plan sustained a
loss of over $800,000 in providing coverage to the 100 Plan members sampled by the OIG.

       The recalculation of the Plan's risk sco res an d application of a contract-level adjustment
on a retroactive bas is undermine the Medicare Advantage bidding and payment process. At a
minimum , the Plan was entitled to advance notice of the government's intent to use the flawed
methodology at issue here so that the Plan could have evaluated back in 2006 whether or not it
would remain in the Medicare Advantage program.

       The methodology used to conduct this audit is fatally flawed and statistically invalid for
at least the fo llowing reasons:

        -The RADV audit process, based on the CMS-HCC payment model, fails to recognize
that the process used to d etermine HCCs for risk -adjusted payment is not the same as the process
used to determine upon audit whether the "one best medical record" supports the HCC. The
MRC's fai lure to account for differences in these processes res ulted in the erroneous invalidation
of nearly halfof the HCCs, as evidenced b y the Plan Medical Director's analyses of the OlG's
alleged H CC "errors." See Exhibit 3. These summaries make clear that the Plan members at
issue had the diagnosis that supported the HCC that was the basis for the risk-adjusted payment
to the Plan. Removing these erroneous di screpancies from the Draft Report reduces the alleged
extrapolated "overpayment" by approximately $11. 8 million.


                                                 44
                                                                                                   Page 45 of 47




       -The failure to include over !3,400 (of32,260) Plan members with no HCCs in the audit
population is an additional factor skewing the audit results in favor ofa higher alleged
overpayment amount.

       -The OIG's retraction of its prior representation to the Plan that it wo uld consid er
additional HCCs within the audited sample to offset its results deprives the Plan of a further
reduction of $6.5 million to the alleged overpayment amount. Ifall HCC review errors are
considered, the OIG's recommended adjustment figure of $23.6 million is reduced to $5.2
million . See Exhibit 3.

       -The CMS-HCC payment model (which pays a set capitation amount for an individual
based on cost predictions made over a large population of individuals with the same assigned
HCCs) is highly inaccurate when used to audit payments for a small sample size. Capitation paid
for one individual based on his/her HCC(s) bears virtually no relationship to the actual cost of
coverage for that particular individual. The confidence interval used by the OIG accounts only
for the small sample size relative to the population sampled and completely fails to account for
the high degree of uncertainty caused by the application of the CMS-HCC payment methodology
logic to this audit. In fact, the Plan can demonstrate that the confidence interval adjustment
required by use of this methodology is so significant that the lower confidence bound may well
result in a 2007 underpayment by CMS to the Plan.

       - The OTG failed to apply other basic statistical principles which CMS has followed in its
own RADV audits, including use of a sample size twice that used by the OIG in its RADV audit
of the Plan and use ofa stratified sampling process to ensure a representative sample.

       -The OIG failed to take into account the impending CMS RADV audit adjustment
methodology. This adjustment is necessary to account for the error rate in Medicare fee-for­
service claims data upon which the CMS-HCC risk adjustment factors are based.

       If OIG's reconsideration of the issues -outlined above does not result in the Plan's
requested discontinuation ofthis audit, then the audit process should at least be pended until
there has been a full, fair and independent review by a second qualified MRC of the HCC
discrepancies and the additional documentation and information provided by the Plan in thi s


                                                 45
                                                                                                  Page 46 of47




Response. Any further draft or final OIG report should reflect that the review conducted by the
second MRC appli ed the correct documentation and review standards, and incorporated the CMS
adjustment factor once it is released.

       Finally, consistent with OIG precedent , any recommended payment adjustment should be
limited to the results ofthe audit sample and not extrapolated.


                                  *      *       *      *         *
       Please do not hesitate to contact u s regarding any matter contained in this Response.

Sincerely,




Kristi Thomason
VP, Medicare Administration




Enclosures




                                                46 

                                                                          Page 47 of 47




                        List of Exhibits

Exhibit 1     Analysis: Comparison of Plan Bids and CMS Payment
              With and Without Prospective Audit Adjustment

Exhibit 2    Adjustments Due to Errors in Review by MRC

Exhibit 3    Disputed HCC Discrepancies and Additional HCCs

Exhibit4     OIG Entrance Conference Agenda

Exhibit 5    Analysis: Impact ofOJG Disease Interaction Errors

Exhibit 6    Analysis: Determination ofHCCs for Payment is Not Equivalent
             to Audit Evaluati on ofHCCs from Medical Records

Exhibit 7    Chart: Percent Frequency ofHCCs for Population and Sample

Exhibit 8    Analysis: CMS Revenue Received Compared to Medical Expense
             incurred for OIG Sampled Members

Exh ibit 9   Analysis: Forecast Variances for Risk Adjustmen t Payment Model
             Not Considered in Confidence Interval

Exhibit 10   Plan Process Improvement, Physician Education and Audit
             Programs




                              47
